<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: EVALUATING ACCREDITATION'S ROLE IN ENSURING QUALITY</title>
<body><pre>[Senate Hearing 114-657]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-657

REAUTHORIZING THE HIGHER EDUCATION ACT: EVALUATING ACCREDITATION'S ROLE 
                          IN ENSURING QUALITY

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON 
          EVALUATING ACCREDITATION'S ROLE IN ENSURING QUALITY

                               __________

                             JUNE 17, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-885 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             PATTY MURRAY, Washington
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                  ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                 AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska               MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                  SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina            TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                 CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                  ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

               David P. Cleary, Republican Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  
























                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, JUNE 17, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     3
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     4
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    31
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    33
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    34
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    36
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    40
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    42

                               Witnesses

Ewell, Peter T., Ph.D., Vice President, National Center for 
  Higher Education Management Systems, Boulder, CO...............     5
    Prepared statement...........................................     7
Pruitt, George A., Ph.D., President, Thomas Edison State College, 
  Trenton, NJ....................................................    11
    Prepared statement...........................................    12
Gray, Albert C., Ph.D., President and Chief Executive Officer, 
  Accrediting Council for Independent Colleges and Schools, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18
Neal, Anne D., President, American Council of Trustees and 
  Alumni, Washington, DC.........................................    21
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    ACICS, letter................................................    49
    Response to questions of Senator Murphy by:
        Peter T. Ewell, Ph.D.....................................    51
        George A. Pruitt, Ph.D...................................    52
        Albert C. Gray, Ph.D.....................................    53
        Anne D. Neal.............................................    54

                                 (iii)

  

 
REAUTHORIZING THE HIGHER EDUCATION ACT: EVALUATING ACCREDITATION'S ROLE 
                          IN ENSURING QUALITY

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Scott, Murray, Casey, Franken, 
Bennet, Whitehouse, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This is our fifth hearing in this Congress on the 
reauthorization of the Higher Education Act. Today we're going 
to focus on ensuring quality in higher education and explore 
the role of accreditation in doing that.
    Senator Murray and I will each have an opening statement, 
then we'll introduce our panel, and after the witness testimony 
Senators will have 5 minutes of questions. I'll ask the 
witnesses to summarize their remarks in 5 minutes. That will 
give us more time to have a conversation.
    We're here today to discuss how we make sure that colleges 
are offering students a quality education. That's the principal 
role of accreditation. Accreditation is a self-governing 
process. Colleges created it in the 1800s. The organizations 
they created were intended to help colleges distinguish 
themselves from high school and to credit one another.
    As time went along, there was no Federal involvement in 
higher education or accreditation, and right around the end of 
World War II only about 5 percent of the American population 
had earned a college degree.
    Accreditation, however, took a new role in the 1950s after 
the Korean War. Congress went looking for a way to ensure the 
money spent in the GI bill to help veterans go to college was 
being used at legitimate, quality institutions. Congress had 
enough sense to know Congress couldn't do the job of evaluating 
the diversity of our colleges and universities themselves, so 
they outsourced the task to accreditors.
    Accreditors became, as many say, gatekeepers to Federal 
funds. The Korean War GI bill of 1952 established this new 
responsibility first and said veterans could only use their 
benefits at colleges that were accredited by an agency 
recognized by what was then called the Commissioner of 
Education. After that it was the Secretary of Education.
    The Higher Education Act of 1965 used this same idea when 
it created Federal financial aid for non-veteran college 
students. Around this time, 1965, only about 10 percent of our 
population had a college degree. However, the 1992 Higher 
Education Act amendments were the first time the law said much 
about what standards accreditors needed to use when assessing 
quality at institutions of higher education.
    Today, current law outlines 10 broad standards that 
federally recognized accreditors must have when reviewing 
colleges. They include, among others, student achievement, 
curriculum, faculty, facilities, fiscal and administrative 
capacity, et cetera. Colleges and accreditors determine the 
specifics of those standards, not the Department. For the 
student achievement standard, for example, colleges and 
universities define how they meet that standard based on their 
mission. The law specifically doesn't let the Department of 
Education regulate or define student achievement. In fact, in 
2007, when the Department of Education tried to do that, the 
Congress stopped them.
    Still, Congress spends a lot of money helping students 
choose colleges and attend, $33 billion for Pell Grants each 
year. Congress lends over $100 billion in taxpayer loans that 
students have to pay back. We have a duty to make certain we're 
spending the money wisely.
    I believe there are two main concerns about accreditation. 
No. 1, is it helping to ensure quality? And No. 2, is the 
Federal Government guilty of getting in the way of accreditors 
doing their job? The Task Force on Government Regulation of 
Higher Education, which was commissioned by a bipartisan group 
of Senators on this committee, told us in a detailed report 
that Federal rules and regulations on accreditors have turned 
the process into Federal micro-management.
    In addressing these two concerns, I think we should look at 
five areas, and I'm going to place my comments in the record 
rather than go into detail in each of the five. They are, in 
summary: No. 1, are accreditors doing enough to ensure that 
students are receiving a quality education? Chief academic 
officers seem to all think yes. Many business leaders aren't so 
sure. No. 2, would more competition and choice among 
accreditors be one way to improve quality? No. 3, do Federal 
rules and regulations force accreditors to spend too much time 
on issues other than quality? No. 4, do accreditors have the 
right tools and flexibility to deal with many different kinds 
of institutions? And No. 5, should consumers and the public 
generally benefit from more information about accreditation?
    It's important to find a way to make accreditation work 
better. I have had a hard time thinking of another way to do 
this, although Ms. Neal has some interesting thoughts in her 
testimony that I'm looking forward to hearing more about; that 
is, to monitor quality. If the accreditors don't do it, I can 
assure you the Congress can't, and Department of Education I 
don't believe has the capacity or the know-how. It could hire 
1,000 bureaucrats to run around the country reviewing 6,000 
colleges, but you can imagine what that would look like. They 
already try to rate colleges, and no one is optimistic about 
those efforts. I think they will collapse of their own weight.
    I'm interested in new ideas, as all the members of our 
committee are, as we move toward the reauthorization of the 
Higher Education Act.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Chairman 
Alexander.
    I want to thank our witnesses for being here today to talk 
about how to improve quality at our Nation's colleges and 
universities.
    Expanding opportunities for more Americans to further their 
education is, of course, an important investment for our 
students' future. It's also an important investment for our 
country. It will strengthen the workforce we'll need to compete 
in the 21st century global economy. It will help us grow our 
economy from the middle out, not just from the top down. We 
should work on ways to help more students earn their degree and 
gain a foothold into the middle class.
    We can't deny that higher education is out of reach for too 
many aspiring students. As we continue our conversations on the 
Higher Education Act, I'm going to be focused on several 
priorities. I want to make college more affordable and reduce 
the crushing burden of student debt, because I believe all 
students should have access to that learning. I want students 
to have access in a safe learning environment. Strengthening 
protections for students and preventing sexual violence and 
assault and bullying on campus is a priority for me, as I know 
it is for families across our country.
    We need to make sure students from all walks of life have 
strong, clear pathways into and through higher education. Our 
accreditation system plays an important role in making sure 
colleges and universities are providing a quality education, so 
I'm glad that we have a chance today to talk about 
strengthening that quality assurance.
    Without accreditation, a college or university is not 
eligible for Federal student aid. Accreditors, States, and the 
Federal Government have a responsibility to make sure that that 
gatekeeping role is working effectively. It's also important 
for both students and taxpayers who expect to get a return on 
their investment in higher education.
    Recently we have seen far too many examples of students and 
taxpayers facing the consequences of poor oversight. There is, 
without a doubt, room for improvement in the current system to 
better assess an institution's quality and student outcomes.
    First we need to modernize the system to make sure it is 
responding to the changing landscape of higher education. A new 
wave of online courses and programs can occupy a gray area for 
accreditors, but online programs also present new opportunities 
to evaluate quality. It's time to update the accreditation 
system to respond to those needs and better protect consumers.
    Second, we need to promote best practices across regions 
and across accreditation systems. I also recognize accreditors 
have to wear many hats. They have to assess the quality of a 
school and increasingly enforce compliance for several Federal 
laws and regulations. That can distract accreditors from 
indicators of quality, like student learning and success.
    I'm open to a conversation on refocusing accreditors' role, 
but that should never come at the expense of foregoing the 
enforcement of important Federal protections like student 
safety on campus or ensuring a college is financially sound. 
The Department of Education should receive the resources it 
needs to enforce that compliance.
    Accreditors also need to be thinking about how to assess 
quality and educational excellence, both by developing new 
tools to assess national online programs and by more rigorously 
evaluating student outcomes.
    Third, we need more transparency and consistency from the 
peer review accreditation process. There is great value in peer 
review, and we've seen it work in many sectors--medicine, law, 
engineering. We need stronger protections to prevent conflicts 
of interest.
    And finally, I applaud the recent effort by some 
accreditors to strengthen the focus on student success and to 
more rigorously verify the claims made by institutions. We need 
more of that. Accrediting bodies have sometimes certified 
colleges where there is a pattern of extraordinarily high 
student loan defaults or where colleges use false job placement 
information. The collapse of Corinthian College shows that we 
all need to do more for students to ensure that quality is 
verified, students are protected, and taxpayer dollars are well 
spent.
    As I said before, we need better consumer data around 
student outcomes like retention, completion, and transfer 
rates. That would go a long way in helping students and their 
families as they shop for college options. It would also be a 
powerful tool for accreditors to assess quality at a given 
institution.
    I'm looking forward to hearing from all of our witnesses 
today on their experience and their perspective on how we can 
best strengthen the accreditation system. Students, families, 
and taxpayers trust accreditors to ensure colleges and 
universities in our country offer a good, quality education, 
and we need to make sure the system is worthy of that trust.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Senator Bennet, would you like to introduce our first 
witness?

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Chairman. I appreciate it.
    And thank you, Ranking Member, for holding this hearing.
    I'm honored this morning to introduce to the panel Dr. 
Peter Ewell. Dr. Ewell is the vice president of the National 
Center for Higher Education Management Systems in Boulder, CO. 
The center is a research and development organization that 
focuses on improving management decisionmaking in higher 
education.
    Dr. Ewell's work focuses on institutional effectiveness in 
assessing student outcomes. He's consulted with over 475 
colleges and universities and more than 30 State or national 
governments. Dr. Ewell has authored several books and numerous 
articles on improving undergraduate instruction.
    Previously, Dr. Ewell worked at Governors State University 
and was on the faculty of the University of Chicago.
    Thank you, Dr. Ewell, for joining us here today, and we 
look forward to your testimony.
    The Chairman. Thank you, Senator Bennet.
    Our next witness is Dr. George Pruitt, president of Thomas 
Edison State College in Trenton, NJ. He's served in this role 
since 1982. He has a distinguished background, including some 
time in Nashville as professor at Tennessee State. We welcome 
him here.
    Our next witness is Dr. Albert Gray, president and chief 
executive officer of the Accrediting Council for Independent 
Colleges and Schools, over 25 years of experience directing 
accreditation professional and technical membership programs.
    Our final witness, Ms. Anne Neal, president of the American 
Council of Trustees and Alumni. Ms. Neal co-founded this 
organization which has a mission of expanding academic freedom, 
excellence, and accountability at colleges. Since 2007, she's 
served on the National Advisory Committee on Institutional 
Quality and Integrity, which has a primary purpose of advising 
the U.S. Secretary of Education on accreditation.
    We look forward to your testimony. We can start and go 
right down the row, and if each of you could summarize your 
remarks in about 5 minutes, we would appreciate it because that 
would allow more time for questions.
    Mr. Ewell.

 STATEMENT OF PETER T. EWELL, Ph.D., VICE PRESIDENT, NATIONAL 
  CENTER FOR HIGHER EDUCATION MANAGEMENT SYSTEMS, BOULDER, CO

    Mr. Ewell. Thank you, Senator Bennet, for that generous 
introduction.
    I should mention, and I should have told Senator Bennet 
this as well, I worked for all seven of the regional 
accreditors as a consultant in one way or another, and I've 
written about this issue since the 1992 amendments that were 
referenced.
    My testimony is based on 11 reform proposals that I am not 
going to have time to go over, but they're in the written 
testimony. They are anchored in two fundamental convictions. I, 
like many, I think all of us on this panel, am very concerned 
that accreditation has some severe shortfalls in measuring the 
job that we're asking it to do, accountability for a good deal 
of Federal funds. Senator Murray, you mentioned I think the 
more important thing in some respects, although money is 
important, and that is ensuring the future of the country with 
regard to quality degrees. I think that there are a lot of 
improvements that can be made.
    The second conviction I think is equally important, that I 
think fixing accreditation is a whole lot more preferable to 
blowing it up, than to starting again. Like you, Senator 
Alexander, I can't think of a viable alternative. I've 
consulted abroad for quality assurance agencies in many 
countries. I assure you, they are not cheap. They are difficult 
to put together from government. I don't think Congress can do 
it, either. I think that what we need to do is come to a 
conclusion that a number of changes around the edges can all 
add up to fundamental change is the way to go.
    My specific ideas are based on these 11 proposals. For the 
most part, they're not new. I and others have been advancing 
them since at least 1992. I think they haven't been put 
together in terms of one large, coherent reform agenda that we 
can pursue consciously across the board.
    The proposals are independent and they're specific, 
independent meaning that action on one of them does not depend 
on actions on the others. We can take them one at a time. We 
can do some of them and leave others for later. They can be 
undertaken without a substantial infusion of Federal funds. 
They are things that are not that difficult to do. I think most 
important, they can be done without disturbing accreditation's 
historic role since the late 19th century of improving 
institutions and allowing a platform for this to happen.
    I divided in the background paper these proposals into 
three tiers or levels of challenge. As I say, I don't have time 
to go into all of them, but I'll give you a sampling from 
either end of the continuum.
    Some of the most straightforward. Senator Alexander, you 
mentioned public reporting. For a long time, all you could get 
of the results of an accreditation was whether or not an 
institution was accredited. We've made substantial progress, 
and I think the accreditors are to be commended for that, now 
that we have action letters and team reports as a matter of 
public record in many of the regions, and so on.
    I think we need to go farther than that. We need to come up 
with standard reports that summarize the challenges and 
strengths of institutions that are revealed as a result of the 
review. That's one of them at the most straightforward end.
    Another one at the straightforward end is language. 
Accreditors call things a whole lot of different terms across 
accrediting organizations, and they really mean the same thing 
in many cases, but the public doesn't know that. We need to 
come up with a language which is reasonably standard across 
accreditors. Nowhere is this more important than in describing 
what students have learned as a result.
    Let me, because time is limited, skip directly to a couple 
of things at the high end, if you will.
    One of them is what's been termed a risk-sensitive approach 
to accreditation. Accreditation has historically tended to 
treat all institutions the same. The idea here is based upon a 
track record and statistical data to say that some institutions 
deserve a lighter touch than others, and that would concentrate 
review attention on those that are really in trouble.
    I'm running out of time, so I will stop there. I think that 
these don't have to occur in any particular order. They don't 
have to be according to the actor assigned. I think that in 
2025, if we pursue these ideas systematically, we'll have a 
much more effective system.
    [The prepared statement of Dr. Ewell follows:]
              Prepared Statement of Peter T. Ewell, Ph.D.
                                summary
    The ideas that I want to share with you this morning are anchored 
in two central convictions. First, I believe that the practice of 
institutional accreditation currently falls far short of the model that 
we as a nation should possess for a credible and consistent guarantor 
of educational quality. But second, I believe strongly that fixing 
accreditation is far preferable to scrapping it in favor of an unknown, 
untested, and assuredly more expensive alternative operated by the 
Federal Government or the States.
    The substance of my testimony is organized around 11 specific 
reform proposals that involve a combination of Federal efforts achieved 
through legislation and the Department of Education, and changes 
enacted voluntarily on the part of accrediting organizations 
themselves. They include:

    <bullet> Public Reporting. Accreditors should develop a standard 
report on the results of their reviews that lists the strengths and 
challenges of each institution determined in the course of a review.
    <bullet> Language. Accreditors should adopt common terminology that 
describes key terms, as well as the learning outcomes that they expect 
of graduates of the institutions they review.
    <bullet> Purpose and Focus. Accreditors should not be required to 
``inspect'' institutional compliance with Federal regulations and 
should focus their reviews on the quality of teaching and learning.
    <bullet> Standard Dashboard Measures. Accreditors should develop 
and adopt a standard ``dashboard'' of commonly defined institutional 
performance indicators for use in the accreditation process.''
    <bullet> ``Disciplined'' Peer Review Processes. Peer reviews used 
in accreditation should be supplemented by expert review panels to 
examine such areas as assessment and fiscal condition.
    <bullet> Conduct of Review. Visiting teams should augment 
interview-based onsite evidence-gathering with methods like mini-
surveys, focus groups, audit methods, and field observation.
    <bullet> Role of Students. Accreditors should explore including 
students on peer review teams.
    <bullet> Multiple Levels of Recognition. Accreditors should 
establish additional tiers of recognition for institutions that perform 
at exemplary or ``above standard'' levels of performance.
    <bullet> A ``Risk-Sensitive'' Approach. Accreditors should adopt a 
review process in which the amount of scrutiny involved is proportional 
to an institution's track record of past performance.
    <bullet> Revised Scopes for Regional Accreditors. The scopes of 
regional accreditors should be revised to better distribute the number 
of institutions among them and institutions should be allowed to choose 
which accreditor to use.
    <bullet> Accreditation Governance. Congress should create a free-
standing federally chartered body like the Federal Reserve or the 
Federal Trade Commission to oversee and coordinate accreditors.

    These actions do not have to occur in a particular order or be 
necessarily performed by the actor described. Moreover, the reforms 
that they describe will most realistically occur over a long time 
period, perhaps as long as 10 years. But if only a few of these 
proposals are enacted, institutional accreditation for the United 
States in the year 2025 will be both more efficient and more effective 
in assuring quality in higher education than is currently the case.
                                 ______
                                 
    Thank you Mr. Chairman and Members of the Health, Education, Labor, 
and Pensions Committee for giving me the opportunity to share some of 
my thoughts on how the process of institutional accreditation--our 
Nation's principal quality assurance mechanism for higher education--
can be markedly improved.
    I am vice president of the National Center for Higher Education 
Management Systems (NCHEMS), a policy research and analysis 
organization based in Boulder, CO. By way of background, I have worked 
with regional accreditation for more than 30 years and have consulted 
with all seven regional commissions on topics related to standards 
development and the design of effective institutional review processes. 
I have written numerous policy papers and monographs on accreditation 
dating back to the 1992 Reauthorization of the Higher Education Act 
(HEA) and served as a member of the American Council on Education's 
Task Force on Accreditation in 2011-12. I most recently completed a 
white paper on accreditation reform entitled Transforming Institutional 
Accreditation in U.S. Higher Education that is centered on 11 specific 
reforms. These reforms constitute the substance of what I want to talk 
with you about today, and are directed at improving the accountability 
and public information functions of institutional accreditation without 
damaging its established function of improving institutional and 
educational effectiveness.
    The ideas that I want to share with you this morning are anchored 
in two central convictions. First, I believe that the practice of 
institutional accreditation currently falls far short of the model that 
we as a nation should possess for a credible and consistent guarantor 
of educational quality. The Federal Government, at last count, invested 
$138 billion in postsecondary institutions and depends upon them to 
produce graduates who have the levels of knowledge and skills needed 
for the Nation to remain internationally competitive with an informed 
and competent citizenry. Assuring the quality of our colleges and 
universities is therefore critical. But second, I believe strongly that 
fixing accreditation is far preferable to scrapping it in favor of an 
unknown, untested alternative operated by the Federal Government or the 
States. I have had a good deal of experience with national quality 
assurance systems for higher education in other countries--principally 
the United Kingdom and Australia--and I can assure you that while these 
systems are of high quality, they are not cheap. Only a few of our 
State oversight authorities, meanwhile, have the requisite capacity to 
discharge this function; most are understaffed and undercapitalized and 
would have to be beefed up considerably (again at significant public 
expense) to discharge this responsibility adequately. Accreditation 
currently performs the quality assurance role imperfectly, to be sure, 
but at no cost to the public. It is far better to systematically 
improve it than to embark upon an entirely different road.
    The specific ideas that I propose are, for the most part, not new. 
I, together with many others, have advanced many of them since the 
Reauthorization of the HEA of 1992. But they have not, I believe, been 
put forward together in the form of a concrete, long-term, action 
agenda. They involve a combination of Federal efforts achieved through 
legislation and the Department of Education, and changes enacted 
voluntarily on the part of accrediting organizations themselves. These 
proposals are independent and specific. Action or lack of action on any 
one of them does not depend upon acting on any of the others. And in 
each case, the proposal is quite concrete, avoiding major displacements 
in the current regulatory landscape or significant changes in the roles 
and responsibilities of institutions, accreditors, and Federal or State 
authorities. These proposals, moreover, can be undertaken without a 
huge infusion of additional resources. Finally, as I emphasized 
earlier, they can be undertaken without fundamentally disturbing the 
historic, and I believe largely effective, role of accreditation in 
inducing quality improvement.
    I have divided these reform proposals into three categories of 
ascending difficulty or challenge with respect to their prospects for 
enactment. Each proposal begins with a ``presenting problem'' 
associated with current practice that has been widely cited and needs 
to be addressed. Each then consists of a series of specific actions 
intended to do so.
    The first set of actions is straightforward. There is widespread 
agreement with them expressed through documents as diverse as the 
upcoming NACIQI report on the Triad, the report of the ACE Task Force 
on Accreditation, and Senator Lamar Alexander's policy paper, Higher 
Education Accreditation: Concepts and Proposals. They are as follows:

    <bullet> Public Reporting. Until recently, accreditors did not 
provide much information on the results of institutional reviews other 
than whether or not the institution under review maintained its 
accredited status. Such reporting has improved considerably in the past 
decade and most accreditors now require institutions to report this 
kind of information directly to the public. But public reporting might 
be further improved through the development of standard reports listing 
the strengths and challenges of each institution determined in the 
course of a review, as well as through the use of standard statistical 
performance indicators. Progress to date has been achieved as a result 
of voluntary efforts by individual accreditors. But these efforts could 
be better coordinated through collective action on the part of the 
Council of Regional Accreditors (C-RAC) assisted through Federal 
incentive grants for this purpose made available from the Department of 
Education.
    <bullet> Language. There is considerable variation across 
accreditors with respect to the language that they use to describe 
things like the standards against which they examine institutional 
condition and performance, the review processes they operate, or the 
outcomes of reviews. As a result, it is difficult for outside observers 
to determine whether or not different accreditors are referencing the 
same things when they use different terms or are looking at different 
things altogether. This problem is particularly acute with respect to 
student learning outcomes. To address this, accreditors should be 
encouraged by the Department of Education through NACIQI to voluntarily 
adopt aligned terminology for key features of the review process and to 
map or otherwise justify their learning expectations for students to 
some kind of external reference point like the Essential Learning 
Outcomes proposed by the Association of American Colleges and 
Universities, or the Lumina Degree Qualifications Profile (DQP).
    <bullet> Purpose and Focus. As currently framed, accreditation is 
about the quality of everything that an institution does. But this is 
far too broad a set of topics for accreditors to effectively examine. A 
first step here would be to cut significantly the number of items that 
accreditors are currently required by regulation to ``inspect'' and 
move this responsibility to the Federal Government and/or require it of 
states as part of their processes of licensing institutions to operate. 
Meanwhile, accreditors should place the primary focus of their quality 
review processes on the effectiveness of teaching and learning. This 
would mean conducting more intensive and in-depth examinations of 
curricula and pedagogies, and engaging in a much more thorough look at 
student learning outcomes. This renewed focus could be significantly 
aided by making changes in the language of Part H, Section 496(a) (5) 
(A) of the Higher Education Opportunity Act (HEOA) to emphasize 
``student learning'' in addition to ``student academic achievement.'' A 
final ingredient here would be to extend accreditation's reach beyond 
institutions entirely to embrace the growing number of alternative 
routes to earning credits and credentials such as credit by 
examination, priori learning assessment, and outsourced provision in 
the form of Massive Open On-line Courses (MOOCs) or StraighterLine.

    Proposed actions in the second tier are more challenging, but all 
four have them have been widely discussed--especially in the wake of 
the Secretary's Commission on the Future of Higher Education (popularly 
known as the ``Spellings Commission''). Four proposals comprise this 
category:

    <bullet> Standard Dashboard Measures. The body of evidence 
currently considered in accreditation focuses mainly on written 
documents prepared by institutions and reviewed by accreditors. But 
much information about institutional condition and performance can be 
succinctly presented--and, more importantly, compared--in numeric form. 
Accordingly, accreditors should develop and adopt a standard 
``dashboard'' of 10 to 12 commonly defined statistical performance 
indicators for use in the accreditation process. Because alignment is 
important in such efforts, the development of these indicators should 
be undertaken collectively through an organization like C-RAC. Again, 
accreditors could be encouraged to develop such displays voluntarily 
through incentive grants provided by the Department of Education to C-
RAC and suggestions by NACIQI.
    <bullet> ``Disciplined'' Peer Review Processes. Peer Review is 
central to the accreditation process and should certainly remain so. 
But peers are good at some things and not so good at others. For 
example, peer reviewers frequently lack expertise in important matters 
like the assessment of student learning outcomes, the examination of 
institutional financial condition, and the interpretation of complex 
statistics on retention and graduation. Accordingly, peer review should 
be ``disciplined'' by expert panels operating alongside the regular 
accreditation process in these areas. This is largely a matter for 
accreditors to undertake voluntarily, perhaps encouraged by grant 
funding provided through the Department of Education. These actions can 
be undertaken by accreditors individually, because alignment across 
efforts is less critical than in such areas as developing a common 
language or standard dashboard indicators.
    <bullet> Conduct of Review. Most accreditation visits rely on only 
one approach to gathering evidence during their site visits to 
institutions: group interviews of institutional staff by one or more 
team members. But many additional evidence-gathering approaches are 
available to teams, drawn from organizational consulting or the social 
sciences. These include mini-surveys, focus groups, audit methods, and 
field observation. Using such tools could result in a better body of 
evidence on which to make accreditation decisions. As above, because 
coordinated action is not necessary in this arena, such actions can be 
undertaken by individual accreditors, encouraged by incentive grants 
and NACIQI.
    <bullet> Role of Students. In contrast to quality review elsewhere 
in the world, students currently play almost no role in U.S. 
accreditation. Yet they sit at the heart of the teaching and learning 
process at every institution. Not only could accreditation put more 
focus on examining student experiences as part of a site visit, 
students could also usefully be included on visiting teams and could 
help accreditors develop new standards and review processes that are 
focused more explicitly on the student experience. Efforts to pursue 
this are best undertaken by individual accreditors, but could again be 
stimulated through incentive grants and could be explicitly specified 
in the language of the HEOA.

    The third and final tier of proposed actions involves more basic 
changes in current accreditation practices and/or the regulatory and 
policy environment that surrounds them. Four proposals comprise this 
category:

    <bullet> Multiple Levels of Recognition. Currently, accreditation 
results in only one all-or-nothing outcome: an institution is either 
accredited or it is not. Establishing accreditation recognition at 
multiple levels would allow accreditors to recognize above-standard 
performance and would provide the public with more information than the 
current approach. Doing this would certainly require initiatives on the 
part of individual accrediting organizations but would probably also 
require language changes in the HEOA to allow institutions to be 
treated differently.
    <bullet> A ``Risk-Sensitive'' Approach. In the name of ``equity,'' 
the current accreditation process treats all institutions the same. 
This means that institutions with good track records get the same level 
of attention from accreditors as problematic institutions. The 
alternative is to adopt a ``risk sensitive'' approach in which the 
amount of scrutiny directed at any given institution is proportional to 
the its track record of past performance. Such an approach could render 
the accreditation process far more efficient. Putting such an approach 
in place, however, will require explicit changes in the language of the 
HEOA to allow accreditors to treat institutions differently, as well as 
voluntary adoption of such processes by accreditors themselves.
    <bullet> Revised Scopes for Regional Accreditors. The scopes of the 
seven regional accrediting commissions vary substantially in the number 
of institutions they examine. The largest has review responsibility for 
more than 1,300 institutions and the smallest for fewer than 200. This 
means that they are able to devote quite different amounts of attention 
to any given institution in a review. An alternative way to organize 
accreditation that has been proposed is by type of institution. 
Unfortunately, it is hard to delineate institutional types in a way 
that makes unambiguous distinctions among them. As a result, the best 
proposal is probably to retain the current scopes based on geographic 
region but to gradually and voluntarily redistribute the number of 
institutions within each region so that there is greater balance across 
commissions. This would require modifications in the scopes specified 
in the HEOA to allow voluntary changes in geographic boundaries among 
the regional accreditors. Additionally or alternatively, the term 
``regional'' could be dropped in statute such that all accreditors have 
a national scope, with institutions allowed to choose among them.
    <bullet> Accreditation Governance. The current governance 
arrangements of accreditation make it very difficult for those involved 
to speak with one voice in matters of policy. As independent membership 
organizations, moreover, accreditors have a hard time--and possibly 
even encounter a conflict of interest--when they must discipline their 
own members. A possible reform here would be for Congress to create a 
new free-standing federally chartered (but not federally owned) body to 
oversee and coordinate accreditors similar to the Securities and 
Exchange Commission, the Federal Trade Commission, or the Federal 
Reserve Board. This could also be accomplished through Reauthorization.

    These actions do not have to occur in a particular order or be 
necessarily performed by the actor described. Moreover, the reforms 
that they describe will most realistically happen over a long time 
period, perhaps as long as 10 years. But if only a few of these 
proposals are enacted, institutional accreditation for the United 
States in the year 2025 will be both more efficient and more effective 
in assuring quality among the Nation's colleges and universities than 
is currently the case.
                                 ______
                                 
                              Supplemental
    Thank you, Senator Alexander and members of the committee for the 
opportunity to testify about accreditation reform at the Hearing last 
Wednesday, June 17, and for the invitation to submit additional 
testimony within 10 days. I am availing myself of that invitation today 
to briefly mention a matter which I brought up at the end of my verbal 
testimony. Much of the discussion during the Hearing concerned the 
alleged failure of the accreditor of the troubled Corinthian Colleges--
the Accrediting Council for Independent Colleges and Schools (ACICS)--
to revoke or limit the accreditation of these institutions in the face 
of what appeared to be clear evidence that they were not performing 
effectively in serving their students. While it is proper for the 
committee to point this out, I would like to draw your attention to a 
case in which the opposite  situation applies--a case in which a 
recognized accreditor attempted to sanction an institution that it 
found in violation of its standards, but was blocked from doing so by 
threatened liability and a variety of additional legal actions. I 
refer, as you may know, to the action against City College of San 
Francisco by the Community and Junior College Commission of the Western 
Association of Schools and Colleges.
    As relatively small, free-standing membership organizations, 
regional accreditors lack the resources required to sustain the kinds 
of onerous lawsuits or drawn-out legal actions that can be brought 
against them by the institutions that they sanction. As a result, they 
can be understandably reluctant to sanction institutions in the first 
place, even though they may have a good case for doing so. I am not a 
lawyer, so I cannot recommend the specific actions that might be taken 
to address this unfortunate condition. But I do know that it is not an 
isolated situation. The answer may be indemnification of accreditors 
through Federal action or a similar limitation of liability by other 
actors. I merely wanted to take this opportunity to call the situation 
to your attention. Accreditors might well be more willing to act as 
they ought to, and as you wish them to, if mechanisms were in place to 
stiffen their backbones.

    The Chairman. Thank you, Dr. Ewell.
    Dr. Pruitt

STATEMENT OF GEORGE A. PRUITT, Ph.D., PRESIDENT, THOMAS EDISON 
                   STATE COLLEGE, TRENTON, NJ

    Mr. Pruitt. Thank you, Mr. Chairman, members of the 
committee. I serve as president of Thomas Edison State College 
in New Jersey, chair of the Middle States Commission on Higher 
Education, and member of the board of the Council for Higher 
Education Accreditation, or CHEA. I also served for 19 years as 
a member of the National Advisory Commission on Institutional 
Quality and Integrity, otherwise known as NACIQI. In that 
capacity, I served under five secretaries of education, under 
three presidents of both parties.
    I share this with you because I bring to my testimony the 
perspective of someone who, as a college president, is 
subjected to accreditation; as an accreditor, someone who does 
accreditation; and, as the longest serving member of NACIQI, 
someone who has been deeply embedded in the Federal oversight 
and regulation of accreditation.
    I'd like to share a series of brief summary statements I'd 
be glad to elaborate on during the question and answer period.
    While there are some important things to be done to make it 
better, at its core reasonable accreditation is effective and 
enjoys broad support from the higher education community as the 
best approach for quality assurance in higher education.
    Accreditation is dynamic. It is constantly changing and 
evolving to respond to contemporary circumstances.
    Middle States recently went through a total 
reconceptualization of its accreditation standards and 
processes to focus primarily on the quality of the student 
learning experience and educational outcomes. This was not an 
updating of the previous standards but a soup-to-nuts 
rethinking of it.
    At its heart, the most valuable elements of accreditation 
are self-study and peer review within the context of each 
institutional special mission and purpose. While metrics are 
important, they are only useful when normed against peer 
institutions as defined by institutional mission. Rating 
systems are not indicators of institutional quality but 
descriptors of student demographics. The original quality 
assurance triad of State licensure, Federal oversight of 
Federal programs, and quality assurance by accreditors is still 
a sound model, but it has never been implemented consistently 
or effectively.
    The biggest impediment to the quality assurance role of 
accreditation has been the accumulation of Federal regulations 
that has franchised the Federal obligation to oversee Federal 
programs to the accrediting bodies, thereby distorting the 
quality assurance role in favor of compliance enforcement.
    Educational quality assurance and compliance with 
regulations governing Federal resources are two separate and 
distinctive obligations and should be acknowledged as such. 
Many of the complaints from institutions of higher education on 
regional accreditation are, in fact, an objection to the 
behaviors forced on accreditors to enforce Federal rules. As 
part of the Middle State standards revisions, we have clearly 
separated the quality assurance functions associated with 
accreditation from the compliance work required by the Congress 
and the Department of Education. We want institutions to 
clearly understand the difference between the accreditation 
functions we should be performing and the compliance reviews 
that we are required to perform.
    High-quality academic institutions can suffer periodic 
lapses in their compliance obligations and academically weak 
institutions can have immaculate compliance protocols. We 
should not confuse the two functions. We do support a continued 
link between participating in Federal programs and 
accreditation simply because it is logical that participants in 
Federal programs have a reasonable assurance that their 
institutions meet the appropriate standards of quality and 
integrity.
    Accreditation occasionally gets criticized as a barrier to 
innovation. There is some validity to this observation. The 
impediments we faced in respect to creativity and reasonable 
experimentation by our institutions is the rigidity of the 
Federal regulations that do not permit us the flexibility and 
the nimbleness to support innovation by our members. The 
strength of American higher education lies in the diversity of 
its institutions, with differential missions serving various 
populations. The biggest threat to the ongoing viability of 
this national treasure is the one-size-fits-all template.
    Members of the triad--State licensure, Federal oversight, 
and quality assurance by accreditors--can best serve our 
Nation's interests by working together, cooperating, 
collaborating, and communicating, but staying in our respective 
lanes.
    Thank you for this opportunity. I'd be glad to elaborate 
further during the question and answer period.
    [The prepared statement of Dr. Pruitt follows:]
             Prepared Statement of George A. Pruitt, Ph.D.
                                summary
    My testimony focuses on the role of accreditation in ensuring 
quality in higher education with emphasis on what is working well. 
Remarks will also identify some current issues in accreditation and 
will provide suggestions for improvements that could enhance 
accreditation, making it more valuable to students, the public and 
policymakers.
    Regional accreditation is fundamentally sound and effective, and it 
enjoys broad support from the higher education community, as the best 
approach for ensuring quality in higher education. It is dynamic, 
evolving to meet the changing needs of contemporary circumstances. It 
is focused on student learning, achievement and assessment. It provides 
for regular reviews and allows for differentiation in reviews and 
monitoring activities, as warranted by specific circumstances. 
Signature elements of the regional accreditation process that should be 
maintained include peer review, a focus on institutional improvement, 
and attention to institutional mission.
    While accreditation is fundamentally sound, the reauthorization 
process provides a forum for considering improvements that would 
increase the value of accreditation. The following accreditation issues 
are identified, and suggestions for improvements are offered:

    <bullet> Regulations and Compliance;
    <bullet> Accreditation and Innovation;
    <bullet> Transparency/Disclosure;
    <bullet> ``One-size-fits-all'' Templates, Metrics and Bright Lines;
    <bullet> The Triad; and,
    <bullet> The Continuum of Accreditation.
                                 ______
                                 
    Mr. Chairman, members of the committee, my name is George Pruitt 
and I serve as president of Thomas Edison State College in New Jersey, 
chair of the Middle States Commission on Higher Education (MSCHE) and 
member of the board of the Council for Higher Education Accreditation 
or CHEA. I also served for 19 years as a member of the National 
Advisory Commission on Institutional Quality and Integrity, otherwise 
known as NACIQI. I served in that capacity under five secretaries of 
education, under three presidents of both parties. I share this with 
you because I bring to my testimony the perspective of someone who, as 
a college president, is subjected to accreditation, as an accreditor, 
someone who does accreditation, and as the longest serving member of 
NACIQI, someone who has been deeply embedded in the Federal oversight 
and regulation of accreditation.
    This written testimony will focus on the role of accreditation in 
ensuring quality in higher education with emphasis on what's working 
well. My remarks will also focus on some suggestions concerning 
improvements that could enhance accreditation, making it more valuable 
to students, the public and policymakers.
                    what's working in accreditation
    As noted above, I have a relatively long history of working on 
accreditation for my institution and in both regional and national 
organizations. I believe in it and I believe that individual 
institutions and American higher education benefit from the self-study, 
peer review and related processes. Further, I believe that 
accreditation is a fundamentally sound system and will offer some 
observations supporting this conclusion.

    <bullet> As Senators, the likelihood is that you most frequently 
hear about accreditation from institutions that are unhappy about some 
aspect of recent interactions. That is only one side of the story. The 
common criticism of accreditation is that it takes too long, costs too 
much, and doesn't have enough value. However, evidence from MSCHE's 
accredited institutions suggests different conclusions. Unsolicited 
comment from MSCHE institutions engaged in the accreditation process 
continues to emphasize that accreditation is beneficial and valuable. 
In the current round of reviews, one institution wrote in its response 
to the evaluation team report that:

          ``At a time when peer accreditation is the object of intense 
        government skepticism and increased public scrutiny, our 
        experience would argue that this process can, in fact, work 
        effectively to hold institutions accountable for continuous 
        improvement in serving our students, other relevant 
        constituencies, and the larger society.''

    Many institutions have echoed these sentiments.
    <bullet> All of the regional accrediting agencies, including Middle 
States, continue to develop and improve accreditation. Many of the 
agencies have recently been engaged in revising accreditation 
expectations and standards. Middle States has just completed a thorough 
reconceptualization of its standards for accreditation to focus on the 
quality of the student learning experience and educational outcomes. In 
the process, we have reduced the number of accreditation standards from 
14 to 7. Agencies are also reviewing accreditation processes to make 
them more streamlined and to emphasize analytical, evidence-based 
approaches that are driven by an institution's own stated mission.
    <bullet> Peer review, a focus on institutional improvement, and 
attention to institutional mission are signature elements of the U.S. 
accreditation system that should be maintained and that promote the 
diversity found in American higher education.
    <bullet> Peer review works. Our corps of peer evaluators and team 
chairs take their work very seriously, producing thoughtful insight on 
what works and what could be improved to foster quality in our member 
institutions. If ever there was a ``kinder-gentler'' time when 
institutions were simply given a pass by colleague-evaluators this is 
not the case now.
    <bullet> Accreditation is not a ``once and done'' activity. MSCHE 
maintains continuing contact with member institutions not only through 
decennial self-study and peer evaluation, but through followup 
activities as may be warranted, annual reporting, requests for 
information, and through institutional submission of applications to 
have substantive changes included in the scope of the institution's 
accreditation. The agency comes to know its constituency well in the 
course of these contacts.
    <bullet> Accreditors are focused on student learning, achievement, 
and assessment. NILOA (the National Institute for Learning Outcomes 
Assessment) has found that accreditors are the primary driver of 
assessment work.
    <bullet> The Senate committee's white paper on Higher Education 
Accreditation Concepts and Proposals addressed the usefulness of 
``risk-adjusted'' or differentiated reviews. MSCHE and other regional 
accreditors already recognize the usefulness of this approach in the 
way that it monitors institutions. Some institutions require special 
monitoring and followup, while others do not.
    <bullet> Accreditation reviews and actions are arrayed along a 
continuum. We can have great colleges and universities that may not be 
appropriately attending to some aspects of compliance with standards 
and expectations, and accrediting agencies ask for followup and 
improvements in these cases. We can also have smaller, special purpose 
or non-traditional institutions that are found to be in excellent 
health regarding accreditation standards and expectations.
    <bullet> The regional accreditors are working together to better 
align policies and processes. Two examples of this are the 2014 Council 
of Regional Accrediting Commissions statement: Regional Accreditation: 
Warning, Probation, Withdrawal of Accreditation and the very recent 
2015 Council of Regional Accrediting Commissions Framework for 
Competency-Based Education.
    <bullet> The regional structure of accrediting agencies such as 
MSCHE continues to be useful and should be maintained. As noted 
previously, the regional structure allows for continued, meaningful 
connections and enhanced knowledge about member institutions. In 
addition, the 2012 American Council on Education Task Force report 
addressed the issue saying that it would be better to build on the 
current structure and role of regional accreditors.
    <bullet> We support a continued link between accreditation and 
participation in Federal programs. This link allows higher education 
participants and the public to have reasonable assurance that 
institutions meet appropriate standards of quality and integrity.
                  suggestions to improve accreditation
    While accreditation is fundamentally sound, it--like most things--
could be improved, and the reauthorization process provides a forum for 
considering improvements that would increase the value of 
accreditation. What follows is an identification of some of the current 
issues in accreditation together with suggestions for addressing those 
issues. In order to be effective, some of the solutions might belong in 
the legislative language. However, many of the suggested solutions do 
not require that level of attention, and should be accomplished through 
effective partnerships within the Triad or through other non-
legislative means.
Regulations and Compliance
    <bullet> One of our biggest problems is the shift in which 
accrediting agencies have had to devote increasing time, attention and 
resources to compliance with the accumulation of Federal regulations. 
This shift has come at the expense of our original mission centered on 
quality and institutional improvement. The focus should be where our 
expertise lies, on quality and improvement. MSCHE and some of the other 
regional accrediting agencies have begun to separate traditional 
quality assurance functions from compliance aspects that are required 
by Congress or the Department of Education in order to clarify the 
difference in these separate roles.
    <bullet> There are numerous instances where accrediting agencies 
have been asked to take on too much responsibility for enforcing 
compliance with an ever increasing list of Federal regulations. 
Substantive change provides an example. Accreditors must now devote 
substantial attention to all manner of large and small substantive 
changes. Most regional accrediting agencies are dealing with hundreds, 
and in one or two cases thousands of substantive change requests each 
year. Decisions need to be made about which substantive changes are 
really related to educational quality and therefore require careful 
review by accrediting agencies.
    <bullet> There clearly does need to be a careful approval process 
for accrediting agencies. However, recognition of accrediting agencies 
through NACIQI has become a burdensome and bureaucratic process. Under 
the Department of Education's Guidelines for Preparing/Reviewing 
Petitions and Compliance Reports, accrediting agencies are subject to a 
total of approximately 100 separate requirements. We are cautiously 
optimistic about recent efforts to limit reviews to the most important 
of the requirements and hope that the changes will become permanent. We 
also believe that there has to be a better way to determine whether an 
agency is worthy of recognition--perhaps one that would emphasize self-
study and improvement rather than compliance.
Accreditation and Innovation
    <bullet> Accreditation occasionally is criticized as a barrier to 
innovation, but the most serious impediment we face with respect to 
creativity and reasonable experimentation by our institutions is the 
rigidity of the Federal regulations that do not permit us to be 
flexible and nimble in supporting innovation by our members.
    <bullet> It should be our responsibility to accommodate innovation 
while assuring that appropriate levels of quality are maintained. One 
way to do this might be to allow accrediting agencies some form of 
waiver or authority from the Department to allow for experimental 
programs/innovation outside the Department's own experimental sites 
programs. This could have the benefit of speeding up the process of 
finding new ``best practices.''
    <bullet> At this point, there does not seem to be anything even 
approaching consensus about how to deal with third-party providers of 
education. Institutions are increasingly turning to arrangements/
partnerships with such organizations and while regional accrediting 
agencies do engage as necessary, further discussion among all 
constituencies and a search for agreed-upon approaches would be 
beneficial to all. We need to determine whether appropriate quality 
review structures are already available (e.g., regional accrediting 
agencies working with institutions that accept credit offered by third-
party providers, or via organizations that allow providers to have 
their courses evaluated for recommendation as to whether academic 
credit should be considered by receiving institutions), or whether new 
pathways to accreditation might be best.
Transparency/Disclosure
    <bullet> The issue of transparency or disclosure is a thorny one in 
accreditation. The prospect of full disclosure of self-study documents 
probably would fundamentally change the nature of those documents. 
Additionally, while public institutions are used to operating in 
conditions of greater public access to information, the issue 
represents a special problem for private institutions. We should focus 
on the purposes of disclosure--the what, how and when--before making 
decisions. Perhaps the right balance is that the work product of 
accreditation should remain protected while consideration should be 
given to making team reports (or summaries of those reports) public. 
Full disclosure of accreditation actions has been the practice at 
Middle States for many years and we believe this is essential.
    ``One-size-fits-all'' Templates, Metrics and Bright Lines
    <bullet> We must recognize that a single set of bright lines or 
metrics will never replace a thorough analysis by peer reviewers of 
quality in higher education. We need to answer questions about whether 
our institutions are doing a good job and how we know that they are, 
but these questions require thoughtful use of data rather than the 
application of simple metrics. We must be concerned with making 
decisions about data--What data, collected how and by whom? For what 
purposes?
    <bullet> Rather than being satisfied with a number like a 
graduation rate, wouldn't it be better to determine why students either 
do or don't complete programs that they start, or to consider 
available/alternative data about student success? For example, for 
Thomas Edison State College, a graduation rate statistic is the wrong 
metric. Graduation rate statistics assume a standard progression 
through higher education programs and can be more descriptive of a 
traditional demographic. Alternative information such as pass rates on 
professional licensure is more meaningful for my institution and the 
non-traditional student population that it serves . . . and would 
reveal a high level of success!
The Triad
    <bullet> There should be greater collaboration among the members of 
the Triad. At present, there are only informal arrangements, and at 
some level these have not worked well. Improvement here will be 
essential in order to accommodate innovation.
    <bullet> Many States have decreased funding for and the 
``footprint'' of governmental agencies that authorize/license 
institutions of higher education. In some cases, the States have come 
to rely on the work of the accrediting agencies.
    <bullet> Without some system or form of incentive to collaborate, 
the members of the Triad will continue to operate in individual silos.
The Continuum of Accreditation
    <bullet> Many see the accreditation process as binary--an 
institution is either accredited or not. However, there actually are a 
number of gradations in accreditation decisions. Actions range from 
accreditation through followup to warning, probation, show cause and 
then to withdrawal. In 2014, the Council on Regional Accrediting 
Commissions worked to provide a common understanding of sanctioning 
actions, and it might now be a good time to broaden this discussion.
    <bullet> Most of our accredited institutions are judged to meet 
accreditation standards, but some are clearly out of compliance with 
those standards. However, there is a middle, marginal group where we 
need to focus our attention to encourage improvement and quality for 
the benefit of students and the public. Accrediting agencies need 
flexibility and an appropriate amount of time to work with these 
institutions.
    <bullet> The merit of an accrediting agency should never be based 
on the number of instances accreditation is withdrawn. There are times 
when there is nothing more an accrediting agency can do and withdrawal 
of accreditation is necessary, but each time an agency is forced to 
withdraw accreditation, it represents a kind of failure.
    <bullet> The revocation of accreditation is an incredibly 
disruptive and expensive process--for the institution and its students, 
and for the accrediting agency as well. In the actual event, 
institutions are likely to close, merge or be sold; the accreditor is 
likely to be sued; students are displaced; and, in the most disruptive 
situations, the Federal Government may have to forgive significant 
amounts in student loans. Once again, the accrediting agency should 
have flexibility in dealing with the situation and an appropriate 
amount of time to work with institutions.

    Thank you for this opportunity to testify regarding Accreditation's 
Role in Ensuring Quality in higher education.

    The Chairman. Thank you, Dr. Pruitt.
    Dr. Gray.

    STATEMENT OF ALBERT C. GRAY, Ph.D., PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, ACCREDITING COUNCIL FOR INDEPENDENT COLLEGES 
                  AND SCHOOLS, WASHINGTON, DC

    Mr. Gray. Thank you, Chairman Alexander and Ranking Member 
Murray, for the opportunity to contribute to this important and 
relevant discussion regarding the reauthorization of the Higher 
Education Act and reforms to the independent, voluntary system 
of accreditation.
    As CEO of a large national accrediting organization of 
primarily degree-granting institutions in the United States, my 
remarks are in the context of the quality assurance of colleges 
offering professional, technical, and occupational programs 
that lead to employment.
    ACICS derives its authority from the U.S. Department of 
Education and the Council of Higher Education Accreditation, 
CHEA. We were last reviewed by the Department and CHEA in 2011. 
We will again confront that process in 2016. More than 900 
institutions are accredited by ACICS, serving 800,000 students 
in 47 states and a dozen international locations. ACICS has 
developed standards to review new and emerging educational 
modes, including online instruction, international education, 
and competency-based education.
    As the colleges adapt new methods of serving students, 
ACICS is poised to respond with flexibility and innovation. I'd 
like to offer three considerations regarding the initiative to 
strengthen the system of voluntary quality assurance known as 
accreditation.
    First, know the students. That is, understand their unique 
needs and circumstances, and use that knowledge to shape higher 
education policy, as ACICS uses that knowledge to shape 
requirements and expectations for assuring quality and 
institutional effectiveness.
    Second, inventory the depth of rigor and review that is 
applied through the existing quality assurance process, and 
then build on those strengths to make the outcomes of 
accreditation that much more valuable.
    And third, encourage the accreditation community to play a 
broader role in defining the measures of value incorporated in 
the price/value proposition.
    First, regarding knowing your students, students enrolled 
at ACICS colleges are typically working adults. They're 
financially independent from their parents. Some have one or 
more dependents at home. Many are the first in their families 
to have attempted college. More than half of them live, work, 
and attend institutions located in secondary and tertiary 
markets; in other words, communities with populations less than 
500,000, in many cases with populations less than 150,000. 
Compared with traditional students, they tend to have lower 
income levels. They are looking for enrollment opportunities 
that fit their lifestyles, such as close proximity, classes at 
night or on weekends, classes taught by instructors with 
practical as well as academic experience. They require a level 
of student services that may not be commonly available at more 
traditional institutions. They're looking for terminal 
credentials. In other words, they want a diploma, a 
certificate, or a degree that converts to employment.
    ACICS is committed to the importance of a quality 
educational experience for all students, and that's our value 
statement. In the sense of that value statement, we consider 
student services and student needs to be a critical aspect of 
accreditation of our institutions.
    Second, I mentioned considering the strength of existing 
programs of accreditation. ACICS must demonstrate that 
strength, and it has done so through standards and a program of 
applying those standards that comply with the 10 categories of 
the Department's regulations, which include more than 90 
individual requirements, and we've mentioned and talked about 
those a little bit.
    ACICS, as I mentioned, must also demonstrate that it 
complies with CHEA's 12 explicit standards.
    I'm running out of time here. I did want to mention, third, 
that ACICS importantly acknowledges the price/value 
proposition. But recognize that accreditors do not prescribe, 
at least ACICS, or review the affordability or pricing levels. 
We don't have the purview, the expertise to do that, or, 
frankly, the authority under our accreditation authority.
    However, the denominator of the price/value ratio, the 
value of education, is of intense interest. ACICS accreditation 
represents prominence and activism regarding value. Peer review 
not only ensures that the college is meeting minimum standards 
when it operates at its optimum, it pushes institutions to 
attain excellence.
    In summary, I'd like to say that the reforms to 
accreditation accomplished in reauthorization should be based 
on the strong awareness of the students served by private 
independent colleges and schools. They must reflect an 
understanding of the existing strengths of the accreditation 
program. And finally, accreditation is capable of playing a 
broader role in defining and disclosing measures of value that 
are to be applied to the price/value proposition.
    In closing, to the degree reauthorization emphasizes the 
quest for academic quality, reduction in regulatory complexity, 
and avoidance of overreach by the Federal Government, it will 
advance the cause for students. Thank you.
    [The prepared statement of Dr. Gray follows:]
              Prepared Statement of Albert C. Gray, Ph.D.
                                summary
    Establishes the history of ACICS (since 1912), the number and types 
of institutions it serves (900+, providing programs in professional, 
technical and occupational fields), the number and types of students 
enrolled (more than 800,000, mostly working adults, part-time students, 
and other non-traditional enrollment characteristics). Reviewed and 
recognized by the United States Department of Education (since 1956) 
and Council of Higher Education Accreditation (CHEA).
    Describes ACICS's quality assurance of innovative and emerging 
education delivery modes, including distance education, international 
education and competency-based education.
    Offers considerations of reforms to accreditation through the 
Higher Education Act, including knowledge of the students enrolled; 
complete inventory of depth and rigor of current programs of 
accreditation; and emphasis on quality review as a contribution to the 
price/value proposition of higher education.
    Acknowledges value of strengthening accreditation through emphasis 
on quest for academic quality, reduction in regulatory complexity and 
avoidance of overreach by the Federal Government into academic matters.
                                 ______
                                 
    On behalf of the Board of ACICS, our more than 900 colleges and 
schools throughout the United States and internationally, and the more 
than 800,000 students enrolled, my appreciation for the opportunity to 
contribute to the Senate's sincere efforts to strengthen the system of 
post-secondary education in the United States through the 
reauthorization of the Higher Education Act in general, and through the 
thoughtful reform of the system of accreditation in particular. As the 
Nation's community of learners and employers has evolved, so have the 
methods for delivering effective post-secondary education; so too must 
the discipline of quality assurance evolve and reform.
    Founded in 1912, ACICS is the largest national accrediting 
organization of degree granting institutions. ACICS is authorized to 
accredit professional, technical and occupational programs through the 
master's degree level by the U.S. Department of Education and Council 
of Higher Education Accreditation (CHEA). ACICS has been continuously 
recognized by the U.S. Government since 1956 as a reliable authority on 
institutional quality and integrity.
    As a recognized national accreditor, ACICS is not constrained by 
geographic boundaries or territories. Currently we assure the quality 
of colleges and schools in 47 States and more than a dozen 
international locations. ACICS has developed standards and the capacity 
to review new and emerging education delivery modes, including on-line 
instruction, international education and competency-based education. As 
the colleges and schools adapt new modes of serving a dynamic student 
population, ACICS is poised to respond with flexibility and innovation 
in the quality assurance discipline.
    Today I offer three considerations to inform the legislative task 
of reauthorizing the Higher Education Act and strengthening the system 
of voluntary quality assurance known as accreditation:

    1. Know the students, understand their unique needs and 
circumstances, and use that knowledge to shape higher education policy, 
as ACICS uses that knowledge to shape requirements and expectations for 
assuring quality and institutional effectiveness.
    2. Inventory the depth of rigor and review that is applied through 
the quality assurance process and build policy that empowers and 
strengthens the value of that process.
    3. Encourage the accreditation community to play a broader role in 
defining the measures of value incorporated in the price/value 
proposition. This role is uniquely the obligation of accreditation, and 
when it is played effectively, the relationship between price and value 
is kept in balance.

    Regarding the consideration of knowing the students: The more than 
800,000 students served by the more than 900 private, independent 
colleges and schools accredited by ACICS represent an important and 
growing subset of the overall population of learners who enroll in 
post-secondary education across the United States. They are typically 
working adults, financially independent from their parents, with one or 
more dependent children at home, and many are first in their families 
to have attempted a post-secondary education. More than half of them 
live, work and attend institutions located in secondary and tertiary 
markets: communities of population less than 500,000, and in many cases 
less than 150,000. (2015 ACICS Eligibility Application to CHEA).
    Compared with students enrolled in traditional higher education, 
students enrolled at ACICS colleges and schools tend to have lower 
income levels and come from more modest means. They typically are 
looking for enrollment opportunities that are compatible with their 
lifestyles: campuses in close proximity offering classes at night or 
weekends taught by instructors with practical as well as academic 
experience in the field. They also require a level of student 
services--help with transportation, day care, social services and 
educational support--that may not be commonly available at other 
institutions. Many will suspend their post-secondary education due to 
changes in their life circumstances, such as the demands of their 
family or their workplace.
    Typically students enrolled at ACICS accredited colleges and 
schools are seeking terminal credentials; that is, their goal is to 
complete the requirements for a diploma, certificate or degree in a 
timely manner, then convert the credential into employment. Due to 
aspirations for higher credentials by many students, ACICS works 
closely with other institutions and accreditation agencies to maximize 
the opportunities for the transfer of academic credit. The CHEA 
``Framework for Transfer of Credit Responsibilities'' and the ``Joint 
Statement on the Transfer and Award of Credit'' are important 
declarations which provide guidance to the accreditation community and 
to all accredited colleges and universities.
    Students attending ACICS colleges and schools rely heavily on 
relationships and first-hand knowledge to make decisions about their 
lives and opportunities. Word of mouth is typically the most important 
method by which they gain information for making enrollment decisions: 
that is, they ask their friends or relatives or other trusted sources 
to recommend a post-secondary school. (``Bridges Out of Poverty: 
Strategies for Professionals and Communities,'' Ruby K. Payne, Philip 
E. DeVol, aha! Process, Inc. 2006)
    Of the cadre of more than 1,100 peer evaluators deployed by ACICS 
to perform onsite reviews, more than 130 have extensive expertise in 
the field of student services. They are diligent in applying the 
requirements that express the Council's expectations for serving 
students appropriately, regardless of their background or circumstance 
(``ACICS Accreditation Criteria,'' Sections 3-1-410 thru 414; 3-1-441, 
442). At their disposal are more than 30 discrete items of inquiry that 
produce information the Council can utilize in reviewing the 
sufficiency of student services.
    The accrediting council reviews information on a recurring basis 
derived from team reports, student complaints and adverse information 
from third parties to analyze the sufficiency of its standards and 
requirements regarding student services. When an analysis indicates 
patterns of deficiency, Council clarifies or strengthens its written 
standards and enforces the expectations through the accreditation 
review process.
    Recently, the Council reinforced its focus on the experience of 
students, including those derived from student services. The Council's 
published value statement declares: ``ACICS is committed to the 
importance of a quality educational experience for all students.''
    The Council declaration deliberately focuses on the experience of 
students, as well as the quality of the academic content; it reinforces 
an emphasis on students who are currently enrolled, including the 
support they receive from the institution. This emphasis reflects a 
strong awareness of the type of students enrolled at member 
institutions and the unique circumstances and challenges they confront 
in completing a post-secondary education.
    Regarding the strength of the ACICS accreditation program: As is 
true for all accrediting entities recognized by the U.S. Department of 
Education through the statutory authority of the Higher Education Act, 
ACICS stands for review every 5 years. The agency must demonstrate that 
it has standards and a program of applying those standards that comply 
with the 10 categories of section 602.16 (a) of the Department's 
regulations. Those regulations are comprised of 19 discrete sections 
and more than 90 individual requirements.
    In addition, ACICS is recognized by the Council for Higher 
Education Accreditation (CHEA), which applies its expectations through 
12 explicit standards and requirements. CHEA recognizes most of the 
regional accrediting bodies and more than 50 programmatic and 
specialized accrediting entities. ACICS has voluntarily stood for 
recognition and review by the Texas Higher Education Coordinating Board 
(2009); the National League for Nursing Accrediting Commission (now the 
Accrediting Commission for Education in Nursing, 2009); and the 
American Registry of Radiologic Technologists (ARRT, 2015). In all 
cases the independent reviews produced formal recognition of ACICS's 
ability to effectively assure the quality of institutions and 
professions of interest to those entities.
    At the core of the ACICS program of accreditation are strong, 
explicit standards; a diverse and experienced cadre of peer evaluators; 
and an independent, professional Council whose composition reflects 
close ties to various community interests.
    The 125-page ACICS standards, evolved over more than 102 years, 
tend to be more explicit and prescriptive rather than general or 
aspirational. Among other characteristics, the ACICS standards 
emphasize student-focused outcomes, including standards for retention, 
placement, and licensure exam pass rates. Institutions also are 
required to demonstrate how they engage the local community in 
developing and shaping their education programs; the satisfaction of 
employers with the graduates they hire; the satisfaction of graduates 
with the educational experience; and other indicators of student 
learning, such as cumulative grade point average, graded externships, 
portfolios and other capstone projects. On average, the typical ACICS 
colleges will be subject to a full team review every 3 to 5 years; the 
maximum grant length is 6 years, reserved for only those institutions 
that demonstrate strong compliance with all standards and requirements. 
In addition, institutions are required to file every year a report on 
student achievement factors and financial stability.
    ACICS evaluators on average have nearly 6 years' experience serving 
as a peer evaluator; more than a third are drawn from colleges and 
schools unaffiliated with ACICS, including many that are accredited by 
regional entities. Indeed, many perform accreditation reviews for 
regional accreditors as well as ACICS. The primary tools they use to 
review colleges and schools onsite are the published standards and more 
than 425 discrete questions that are answered through interviews, 
direct observation and review of documentation.
    Finally, the ACICS Council is composed of 15 individuals with 
substantial experience in post-secondary education. Four of the fifteen 
have no affiliation with any ACICS college or school; four have 
experience primarily in faculty roles; many have served on 
accreditation review teams for other accrediting bodies. All have a 
strong commitment to quality assurance that enhances the experience of 
students currently enrolled; the Council understands that students who 
have a strong experience today or this week or this semester stand a 
greater chance of completing the program and converting their 
financial, intellectual and emotional investment into economic 
opportunity.
    ACICS acknowledges the focus on the price/value proposition of 
post-secondary education in various policy arenas, and respects the 
initiative behind reducing student indebtedness and the costs of 
attendance. While the Council collects and analyzes information 
regarding the average tuition and fees of programs at member 
institutions, ACICS has not developed standards regarding affordability 
or pricing levels. The numerator of the price/value proposition is 
outside of our purview, our area of expertise, and the authority 
granted by the U.S. Department of Education.
    However, the denominator of the ratio--the value of the education 
received--is of intense interest to ACICS and the broader accreditation 
community. The program of quality review carried out by ACICS 
represents prominence and activism regarding the value of education 
delivered at member institutions. The discipline of peer review not 
only ensures that the college or school is meeting minimum standards of 
eligibility for participation in Federal Student aid programs; when it 
operates at its optimum, accreditation pushes institutions to pursue 
and attain excellence. Accreditation collects, scrutinizes and shares 
the best practices of high-performing institutions with other 
institutions, empowering the education enterprise to deliver greater 
value and quality, irrespective of prices charged.
    ACICS's accreditation program places great emphasis on the 
discipline and practice of institutional effectiveness planning and 
management. The scope and robustness of the plans are subject to review 
by evaluators with administrative and institutional data expertise 
during the recurring accreditation cycle. Data regarding retention, 
placement and licensure exam pass rates are reported and reviewed on an 
annual basis by the Council to ensure institutional effectiveness is 
maintained or enhanced in between accreditation reviews. The aggregate 
data is disclosed through the ACICS website and published in the annual 
compendium of key operating statistics, so that the public, 
policymakers and students may review effectiveness on their own terms.
    The outcomes of the ACICS accreditation review are not provided in 
comparative terms; the institution is either granted accreditation or 
it is denied. The value of the review for the student is knowledge that 
the quality for their investment has been assured by an independent, 
third-party organization with the expertise and authority to ascertain 
deficiencies and prescribe potent, immediate remedies. Enhancing the 
ability of accreditation to play that role is worthy of the Higher 
Education Act during congressional reauthorization.
    In summary, the reforms to accreditation accomplished through the 
reauthorization of the Higher Education Act should be based in part on 
a strong awareness of the students served by private, independent 
colleges and schools. The reforms must reflect an understanding of the 
existing strengths of the accreditation program as it is applied today 
to those institutions. And finally, the accreditation community is 
capable of playing a broader role in defining and disclosing measures 
of value that are to be applied to the price/value proposition. The 
persistent, prominent presence of accreditation on college campuses, 
when coupled with the quality review process, represents a unique 
opportunity to advance and strengthen the balance between price and 
value.
    ACICS acknowledges the daunting but important task Congress faces 
in strengthening accreditation through the reauthorization of the 
Higher Education Act. To the degree the effort emphasizes the quest for 
academic quality, reduction in regulatory complexity and avoidance of 
overreach by the Federal Government into matters that are primarily 
academic in nature, it will advance the cause of students currently 
enrolled, and those who enroll in coming semesters.
    Thank You.

    The Chairman. Thank you, Dr. Gray.
    Ms. Neal.

   STATEMENT OF ANNE D. NEAL, PRESIDENT, AMERICAN COUNCIL OF 
              TRUSTEES AND ALUMNI, WASHINGTON, DC

    Ms. Neal. Thank you, Mr. Chairman and members of the 
committee.
    The mere mention of accreditation typically evokes a 
glazing over of the eyes, so I am very, very happy to all of 
you for understanding that accreditation is not just an obscure 
policy issue. Accreditation is a regulatory policy whose 
application is having real and negative consequences in the 
lives of students and taxpayers. It is self-referential, 
conflicted, burdensome, and opaque. Even as we spend nearly two 
times the per-student average of any industrialized country, 
our graduation rates are below OECD averages.
    As you reauthorize the Higher Education Act, the quality 
assurance system must be strengthened to enhance academic 
quality, promote competition, and provide accountability. To do 
that, I submit that you must end accreditation as a gatekeeper 
for title IV.
    While the accreditation system has been in place, quality 
has gone down, debt has gone up to record highs, and the 
quality of American higher education is being questioned more 
than ever before. Accreditors have done precious little to stop 
this decline because accreditors are not and cannot be reliable 
authorities as to the quality of education or training offered 
as required by statute.
    Accreditors are membership bodies funded, operated, and 
made up of the very people who benefit from title IV, faculty 
and administrators. Accreditors are good at encouraging self-
improvement but not so good at quality assurance and refraining 
from unwarranted regulation. I cannot think of a single college 
in the last 60 years that has ever been closed down solely 
because of quality concerns.
    Accreditation standards are guild-like, often privileging 
inputs and expenditures; for example, tenured professors or 
limited online learning. They give lip service to academic 
freedom and a coherent general education but have allowed the 
proliferation of speech codes and diffuse curricula. They 
require essentially the same thing of every institution whether 
high risk or low risk.
    With apologies to my fellow panelists, there is no 
``there'' there. Accreditation often provides no threshold 
standard, especially when it comes to the non-profit 
institutions. It offers no data about individual programs or 
departments, no comparability in assessment of student 
learning. What we have, in the words of professor Milton 
Greenberg, is a confidential process that hides an 
institution's advantages and disadvantages.
    Accreditors insist only that colleges and universities 
devise their own means of assessing their institutional 
effectiveness, and tweaking the existing system will not make a 
difference because accreditation will remain largely a self-
referential, membership-driven exercise.
    Accreditation is also a failure because it is an opaque 
process. All students are hurt when institutions do not provide 
clear information about quality and financial stability, but 
the negative impact is the greatest on those students who 
typically have the most limited financial means and are least 
familiar with how higher education works. It isn't that they 
just don't graduate. It's often that they often leave with lots 
of student debt and few employment prospects. This is morally 
indefensible, and the blame can be placed on colleges and 
accreditors.
    Finally, the process is costly. Even vastly wealthy 
institutions like Princeton and Stanford are complaining. It is 
worse for small colleges with limited operating budgets, 
particularly in these challenging times in which our colleges 
and universities find themselves. A modern system of quality 
assurance would deregulate, and it would provide audited, 
clear, consistent, and comparable information annually about 
financial stability, price, financial aid, demographics, 
success, grad rates, and student learning gains to help inform 
parents and students. It would not overwhelm colleges with 
counter-productive and costly red tape. It would free 
accrediting agencies to focus on their original mission of 
self-improvement through peer review by ending one-size-fits-
all regional monopolies. At a minimum, it would give 
institutions a choice and allow experimentation with different 
approaches.
    The American Council of Trustees and Alumni encourage you 
to consider three commonsense reforms.

    No. 1, create a direct, expedited recognition for title IV 
using risk-adjusted scrutiny. This is a parallel track. It is 
not blowing it up. It is for low-risk schools, and it would not 
end accreditation.
    No. 2, end regional monopolies and return to true peer 
accrediting agencies.
    And No. 3, eliminate the existing blank-check provision in 
the statute that encourages accreditors to intrude upon 
institutional governance.
    America's colleges and universities have long been the 
finest in the world, and we want them to remain that way. As 
they seek to meet the demands of a modern workforce and 
economy, it's vital that the quality assurance process 
modernize as well.
    I thank you for this opportunity and I look forward to 
fleshing out these ideas with you.
    [The prepared statement of Ms. Neal follows:]
                   Prepared Statement of Anne D. Neal
                                summary
    Accreditation is a regulatory policy whose application is having 
real--and NEGATIVE--consequences--in the lives of students and 
taxpayers. It is self-referential, conflicted and opaque. Even as we 
spend nearly two times the per student average of any industrialized 
country, our graduation rates are below the OECD average. The HEA 
quality assurance system must be strengthened to enhance the quality of 
colleges and universities, promote competition and innovation and 
provide accountability. To do that, we must end accreditation as a 
gatekeeper for title IV.
    While this system has been in place, quality has gone down; debt 
has gone up to record highs; and the quality of American higher 
education is being questioned more than ever before. This decline is 
because accreditors are not and cannot be ``reliable authorities'' as 
to the quality of education or training offered, as required by 
statute. Accrediting bodies are membership bodies, made up of the very 
people who benefit from title IV, faculty and administrators.
    Standards remain guild-like, often privileging, for example, 
tenured professors or mandating a limit on online learning. They give 
lip service to academic freedom, a coherent general education and 
student learning, but have allowed disturbing speech codes to 
proliferate, diffuse curricula to abound, and enforce no minimum 
quality thresholds. They require essentially the same thing of every 
institution, whether high-risk or low-risk. Tweaking the existing 
system will not make a difference because accreditation will remain a 
self-referential, membership-driven exercise.
    Accreditation is also a failure because it is an opaque process. 
Students need clear information about quality and financial stability 
to have the best chance for success--yet accreditation fails to provide 
that information. And the process is costly. Even vastly wealthy 
institutions like Princeton and Stanford are complaining. It is worse 
for small colleges with limited operating budgets.
    A modern system of quality assurance would: (1) Provide clear, 
consistent--and comparable--information annually about price, financial 
aid, demographic success and grad rates to help parents and students 
make decisions; (2) Not overwhelm colleges with counterproductive and 
costly red tape; (3) Free accrediting agencies to focus on their 
original mission of self improvement through peer review by ending one-
size-fits-all regional monopolies; (4) Allow high-quality, innovative 
forms of higher education to emerge.
    We encourage you to consider three commonsense reforms to meet the 
above goals.

    1. Create Direct, Expedited Recognition for Title IV using Risk-
Adjusted Scrutiny.
    2. End Regional Monopolies and Return to True Peer Accrediting 
Agencies.
    3. Eliminate the existing ``'blank check'' provision in the 
statute.

    America's colleges and universities are among the finest in the 
world. As they seek to meet the demands of a modern workforce and 
economy, it is vital that the quality assurance process modernize as 
well.
                                 ______
                                 
    The mere mention of accreditation typically evokes the glazing over 
of eyes and a rapid escape from the room.
    That is why I am so grateful to the Chairman and members of the 
committee for understanding that accreditation is not just an obscure 
policy issue--important only to a few insiders. Accreditation is a 
regulatory policy whose application is having real--and I will argue 
NEGATIVE--consequences--in the lives of students and taxpayers. We must 
redesign and reform quality assurance to strengthen the quality of 
colleges and universities, promote competition and innovation and 
provide accountability. To do that, we must end accreditation as a 
gatekeeper for title IV.
    As you all know, accreditation was initially a voluntary system 
helping institutions improve. Teams of faculty paid discerning visits 
to institutions--generally neighbors in the region--to offer 
confidential advice. It was peer review at its finest.
    In making accreditation a gatekeeper, Congress believed it was 
ensuring educational value by applying the successful private peer 
review process to quality assurance. Other countries have educational 
ministries. With accreditation, they thought, we can keep the feds out 
of higher ed by having private membership bodies determine where title 
IV flows. We can have our cake and eat it too.
    I would submit to you: that premise was fundamentally wrong. We 
have had 60 years of experience with this. While this system has been 
in place, quality has gone down; debt has gone up to record highs; and 
the quality of American higher education is being questioned more than 
ever before. The Department of Education conducts the National 
Assessment of Adult Literacy and two surveys (1992 and 2003) have shown 
that a majority of college graduates cannot compare the opinions in two 
editorials or compute the cost of food items when given the price per 
ounce.
    The groundbreaking report, Academically Adrift, by Professors 
Richard Arum and Josipa Roksa similarly shows that many students at a 
range of institutions--large and small, public and private, all 
accredited--are graduating with little or no cognitive gain after 4 (or 
more) expensive years. All the while we are spending nearly two times 
the per-student average of any industrialized nation. Put simply, the 
accreditation system has been a regulatory failure that deceives 
students and families.
    If we want to know why academic quality has gone down, it is 
because accreditors are not and cannot be ``reliable authorities'' as 
to the quality of education or training offered, as required by 
statute. Accrediting bodies are membership bodies, made up of the very 
people who benefit from title IV, faculty and administrators.
    It should come as no surprise that accrediting standards remain 
guild-like,\1\ often privileging, for example, tenured professors or 
mandating a limit on online learning. They give lip service to academic 
freedom, but have allowed disturbing speech codes to proliferate. They 
give lip service to a coherent general education, but have allowed 
diffuse curricula to abound. They give lip service to student learning, 
but enforce no minimum quality thresholds. They require essentially the 
same thing of every institution, whether high-risk or low-risk. Harvard 
which has a 97 percent (6-year) graduation rate pushes the same papers 
as the University of Maine-Augusta, which has a 14 percent graduation 
rate in 6 years.
---------------------------------------------------------------------------
    \1\ Campbell University in North Carolina was placed on probation 
because its standard faculty teaching load was 15 hours per week. The 
accreditors insisted that 12 hours was the maximum acceptable load, so 
the school solved the problem by consolidating class sections. Instead 
of the relatively small classes students had come to expect, after 
accreditation, students found themselves in classes of 60 or more. 
George C. Leef and Roxana D. Burris, ``Can College Accreditation Live 
Up to Its Promise? '', American Council of Trustees and Alumni, July 
2002, http://www.goacta.org/images/download/
can_accreditation_live_up_to_its_promise.pdf.
---------------------------------------------------------------------------
    The process is costly--in terms of direct costs and opportunity 
costs--deflecting institutions from innovation and self-determination 
at a time when higher education needs to be nimble. Notably, even 
vastly wealthy institutions like Princeton and Stanford are complaining 
about the cost, intrusiveness, and burdensome nature of accreditation. 
It is yet worse for small colleges with limited operating budgets.
    In their six decades of existence, one can virtually count on one 
hand the number of schools accreditors have closed down--and virtually 
none because of academic quality. Accreditors have often told me that 
they simply cannot shut down a school because it would deprive students 
of Federal financial aid. The goal has been access--not academic 
success. By refusing to focus rigorously on educational value, 
accreditors have allowed students to take out debt when there was 
little or no likelihood of graduating. Student debt now exceeds $1 
trillion. Those most likely to be heavily in debt are students from 
disadvantaged backgrounds.
    What does a school do if it is being abused by an accreditor? 
Suffer. Under current law, the accreditors have been able to carve up 
the country into regions. This effective monopoly gives virtually no 
choice to institutions; they are stuck, allowing accreditors to hold a 
gun to their head. There are more than a few high-profile cases of 
accreditors bullying universities on matters of governance and 
management, far outside the realm of traditional academic peer review. 
Trustees at the University of California, the University of Virginia, 
and Tiffin have found themselves spending time responding to 
accreditors' second-guessing of their oversight and management, when 
they might more profitably have focused on instruction and student 
success.\2\
---------------------------------------------------------------------------
    \2\ Administrators at the University of California system, for 
example, wanted to get a handle on rising administrative costs. But 
when the Regents attempted to investigate and address runaway 
administrative costs, they found themselves accused by accreditors of 
being ``unnecessarily harsh'' with administrators. Rather than being 
allowed to focus on student needs, the trustees had to expend countless 
hours responding to the accreditors who were operating as nothing more 
than defenders of the status quo.
    When the trustees fired and then rehired a president at the 
University of Virginia, they found their institution placed on warning 
by accreditors because of trustees' alleged failure to consult with the 
faculty. Never mind the fact that the Virginia legislature--not to 
mention Thomas Jefferson--had reserved plenary authority to the board 
on matters of appointment and oversight of the president. See H. Brown, 
Protecting Students and Taxpayers: The Federal Government's Failed 
Regulatory Approach and Steps for Reform, PP. 5-6, Sept. 2013, http://
www.goacta.org/images/download/
protecting_students_and_taxpayers_report.pdf.
    When the trustees at Tiffin University decided to improve their 
bottom line by providing low-income students an affordable quality 
education through an online branch, they found their decision being 
second-guessed by the accreditor, and ultimately shut down. The 
accreditor's action has resulted in a lawsuit for tortious interference 
with contract. https://www.insidehighered
.com/sites/default/server_files/files/2015-05-14%20Complaint.pdf.
---------------------------------------------------------------------------
                             no there there
    With all due respect to my fellow panelists, when it comes to 
accreditation there is no there there. Accreditation provides no 
threshold standard. It offers no ranking, no data about individual 
programs or departments, no comparability in assessment of student 
learning. What we have, in the words of Professor Milton Greenberg, is 
a ``confidential process that hides an institution's advantages and 
disadvantages.''
    Accreditors do not ensure a certain level of educational quality; 
instead they insist that colleges and universities devise their own 
means of assessing their ``institutional effectiveness.'' The statute 
and regulations require accreditors to address

        ``success with respect to student achievement in relation to 
        the institution's mission, which may include different 
        standards for different institutions or programs, as 
        established by the institution . . . ''

    Given this system, it is no wonder that academic quality has 
declined under accreditors' watch.
    Paring back the existing regulations--even insisting that they 
focus only on matters that are clearly related to educational quality--
will not make a difference because the accreditation system will remain 
a self-referential, membership-driven exercise.
               failure to provide transparent information
    Accreditation is also a failure because it is an opaque process. 
Students need clear information about quality and financial stability 
to have the best chance for success--yet accreditation fails to provide 
that information.
    All students are hurt when institutions do not provide transparent 
information and do not deliver good outcomes. But the negative impact 
is greatest on those students who typically have the most limited 
financial means and are least familiar with how higher education works. 
It isn't just that they don't graduate; it is that they often leave 
with lots of student debt and few employment prospects. This is morally 
indefensible, and the blame should be placed squarely on colleges and 
their accreditors.
    As you prepare for reauthorization of the Higher Education Act, we 
encourage you carefully to examine the system of quality assurance 
established by Congress to protect the use of taxpayer funds. Last 
significantly changed in 1965, the current gatekeeping process--
accreditation--that provides colleges and universities access to 
Federal title IV higher education student loans and grants no longer 
meets the needs of higher education in 2015.
    A modern system of quality assurance would:

    <bullet> Provide clear, consistent--and comparable--information 
annually about price, financial aid, demographic success and grad rates 
to help parents and students make decisions.
    <bullet> Not overwhelm colleges with counterproductive and costly 
red tape.
    <bullet> Free accrediting agencies to focus on their original 
mission of self improvement through peer review by ending one-size-
fits-all regional monopolies and letting them once again become 
organizations of peer institutions.
    <bullet> Allow high-quality, innovative forms of higher education 
to emerge.

    We encourage you to consider three commonsense reforms to the 
quality assurance mechanisms in the Higher Education Act to meet the 
above goals.
    1. create direct, expedited recognition for title iv using risk-
                           adjusted scrutiny
    In an effort to protect taxpayer dollars, weed-out diploma mills 
and bad actors, and reduce red tape on good actors, regulatory 
resources should be focused on the highest risk institutions. Congress 
should create a mechanism for colleges and universities which have a 
low financial risk as currently determined by the U.S. Department of 
Education's Financial Responsibility Standards to register with the 
Department proof of (1) learning gains using a nationally normed 
assessment and/or professional certification and licensure exams, and 
(2) that they measure and accurately report price, financial aid, 
graduation and student learning outcomes. Independent third-party 
audits of this information would need to be submitted and the 
Department could impose stiff sanctions for false reporting.\3\
---------------------------------------------------------------------------
    \3\ Notably, 22 top education and civic leaders raised concerns 
about the immense financial burdens of accreditation and urgently 
called on Congress to consider ending accreditors' gatekeeping role. 
See Governance for a New Era: A Blueprint for Higher Education 
Trustees. The group was chaired by former Yale University president 
Benno Schmidt and included Business Roundtable president John Engler, 
Maryland Regent Thomas McMillen; former U.S. Senator and University of 
Colorado president Hank Brown; former Lafayette College president 
Arthur Rothkopf; and former University of Northern Arizona president 
Clara Lovett. http://www.goacta.org/images/download/
governance_for_a_new_era.pdf.
---------------------------------------------------------------------------
    Upon registration, the Department would expeditiously certify 
eligible institutions as recognized by the Secretary for purposes of 
receiving title IV funding.
    This Direct, Expedited Recognition process is analogous to 
companies which file for an IPO with the SEC--they make public key, 
audited information and then are free to conduct their business. This 
would be an option only for low-risk institutions using financial 
scrutiny already performed by the Department. It would require a modest 
certification fee, thus needing no new taxpayer funds for the 
Department to administer.
    Utilizing risk-adjusted scrutiny would allow the Department and 
accrediting agencies to spend more time on bad actors while placing 
lighter burdens on high quality institutions which would no longer need 
to go through the lengthy and cumbersome traditional accrediting 
process in order to be eligible for title IV funding. This system would 
NOT result in more direct Federal involvement. Accreditors would not be 
second guessing mission. There would be no Federal requirements about 
standardization of student learning outcomes and assessment.
    In this system, schools could have different standards and 
different programs. They would voluntarily provide basic information 
about grad rates, retention rates, repayment rates and employment. New 
institutions with limited financial resources could, in turn, provide 
protection by posting a surety bond.
    In this system, proof of educational value would release title IV 
funds.
    Would this disadvantage schools with underserved populations? No. 
It would actually elevate those that are doing a good job. The 
nationally normed tests like CLA, CAAP, and Proficiency Profile are 
based on the cohort of students served. In other words, these tests 
take the students where they find them. This would not be a one-size-
fits all solution, not a single kind of exam, like NCLB. Institutions 
using other forms of nationally normed assessments (including trade 
certifications) could also present those results in fulfillment of this 
requirement.
    Accreditation could be continued, even mandated--but not as a 
gatekeeper for Federal funds.
2. end regional monopolies and return to true peer accrediting agencies
    Accreditors do not sell their services in competition with other 
firms. Rather, for the vast majority of colleges and universities, six 
regional accreditors operate as monopolies, overseeing nearly every 
school in their region--from the local design school to a top five 
world-renowned research university. This creates incentives to adopt 
standards and processes that focus on the lowest common denominator and 
may be meaningless in many contexts. The American Council of Education 
(ACE) convened a taskforce from colleges and accrediting bodies that 
concluded: ``the current regional basis of accreditation is probably 
not the way America would structure the system if starting from 
scratch.''
    Congress should eliminate any explicit or implicit anti-trust 
protection from accrediting agencies that allows them to carve up the 
country into monopolistic regions. Congress should explicitly direct 
the Secretary of Education only to recognize for title IV gatekeeping 
purposes accrediting agencies that either are very specialized--i.e., 
serving a specific type of institution such as community colleges or a 
very narrow geography (such as one State like the New York Board of 
Regents already does) or operate nationally. Finally, Congress should 
eliminate from statute any requirement that an institution wishing to 
join a new accreditation organization must first notify and/or get 
approval from the Department or Secretary.
    Ending regional monopolies will encourage more innovation among 
accrediting agencies and free colleges and universities from being 
stuck with an agency that may be ineffective, overly costly and 
unresponsive.
    Accreditors could develop important differentiation (i.e., liberal 
arts, research) and perhaps even a highly sought-after top-level 
certification for outstanding schools. Look at LEED Certification in 
architecture--gold, platinum and silver--it is a perfect example of a 
private system that sets a real marker of quality!
   3. eliminate the existing ``blank check'' provision in the statute
    The existing Higher Education Act limits the Secretary of 
Education's authority to establish criteria for accreditation agencies 
outside the scope of statute, but it provides that accreditors may 
adopt additional standards outside the realm of the statute. This 
``blank check'' provision has effectively permitted private nonprofit 
entities to interfere in governance and management matters--raising 
serious Constitutional concerns. The elimination of this provision 
would ensure that accreditors are focused on matters of academic 
quality, which are properly and historically the focus of peer review.
    America's colleges and universities are among the finest in the 
world. As they seek to meet the demands of a modern workforce and 
economy, the sweeping changes technology is bringing to learning and 
pedagogy, and changing demographics of students, it is vital that the 
quality assurance process modernize with them as well.
    Thank you.

    The Chairman. Thank you, Ms. Neal.
    Thanks to all the panelists.
    We'll now begin a series of 5-minute rounds of questions. 
We'll begin with Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Dr. Ewell, let me start with you. Accreditors play a very 
critical role as the gatekeepers for $150 billion in Federal 
financial aid that is distributed every year. But, as I'm sure 
many of you are aware, last year a GAO analysis found that 
colleges and universities with weaker student outcomes were no 
more likely to have been sanctioned by accreditors than schools 
with stronger student outcomes. That means that the schools 
that aren't serving students as well are just as likely to be 
accredited as those that are, and the GAO report said that the 
Department of Education doesn't consistently use sanction 
information for oversight.
    It seems clear that quality assurance needs some kind of 
improvement. What do you think the Federal Government's role is 
in improving the accreditation process and making sure it works 
for our students and our institutions and our taxpayers?
    Mr. Ewell. Well, I think that the GAO report does make an 
awful lot of very good points, most of which I agree with. The 
things that I'm proposing are intended to tighten the system a 
good deal. In fact, I agree with my colleague, Anne Neal, on a 
number of the proposals that she's making of introducing more 
competition among accreditors so that institutions have a bit 
more choice in what they go after, a lot more in terms of 
statistical reporting, as has been put forward. We know how to 
measure things a lot better now than we did 50 years ago.
    We need some triggers, and the accreditors are beginning to 
hear that message. The HLC, the Higher Learning Commission of 
the North Central Association, recently put in a number of 
threshold criteria for talking to institutions. They don't say 
you don't get accredited if you fall below this threshold, but 
we certainly notice you, and you are going to have to answer a 
whole lot more questions.
    Let me also address the--I like to call it the ``blood on 
the floor'' issue, that there aren't that many institutions 
that don't get accredited. First of all, I think that there 
should be more, and statistical criteria would help inform 
that. I think what is often overlooked in accreditation is the 
candidacy process, that many institutions do fail candidacy 
when they come forward, and they are essentially asked not to 
apply. It's essentially like saying the flunk-out rate at 
Harvard is very, very low, but not very many people get in.
    I think that you have to look at both sides of it.
    Senator Murray. I understand, OK.
    Dr. Pruitt, student success is really important to me and 
to many members here. Some accreditors, like the one you chair, 
recently revised their standards to place a new focus on 
educational quality. Others are launching efforts to better 
track student outcomes. I think those are great steps, but it 
seems like we need to be doing more.
    What actions are your organization planning to take in the 
future to do a better job of measuring student outcomes?
    Mr. Pruitt. Well, I wish the metrics were simple, and some 
of the discussions imply that they are. A problem is what are 
the metrics and what should the metrics be? They aren't as 
simple as the public thinks they are. Something like attrition 
and retention, retention assumes that there's a normative 
pattern of progress, and most people assume retention means 
that you enroll as a freshman, you go 4 years later and you 
graduate. That's true for about 40 percent of the students in 
American higher education.
    How do you measure attrition and retention when you have 
most of the students in America going part-time? The last time 
I looked at it, the average time to graduation for a part-time 
student was about 9 years.
    I made a comment earlier that the data tends to reflect a 
descriptor of the demographics of the student body and not 
measures of quality. There are some measures of quality that 
you can kind of count on. If there's a licensure exam for a 
program that a student is taking, a student should assume that 
if they graduate from an accredited institution, it should be 
assumed that they're going to pass their State licensure exam. 
If they can't, that's a problem.
    Those are some fairly good indicators. Graduate school 
acceptance rates, self-evaluations. Our students have very 
strong consumer views. They're very good at telling us what 
does work for them and what doesn't work for them. The fact of 
the matter is, we have a lot of data about whether the students 
feel that the money was worth it, that the experience was worth 
it, and it's pretty celebratory.
    I'm not trying to duck the question, but the problem is 
that we need more differentiated metrics that are more focused 
on the particular demographics of the students and the mission 
of the institution, and there is going to be variation on that, 
and we have to learn to be comfortable with that variation. It 
can't be a byline indicator.
    Senator Murray. I'm out of time, so I'm sorry to cut you 
off. I do have additional questions I'll submit for the record, 
and I really appreciate the accommodation, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Your testimonies are full of interesting ideas, so I'm just 
going to ask three questions and give the four of you a chance 
to answer all three and hope that we'll keep it within about 5 
minutes. They come from your own recommendations.
    The first is treating some of our 6,000 institutions 
differently than others. Dr. Ewell, you called it a lighter 
touch. Ms. Neal, I believe that's what you mean when you talk 
about the direct recognition by the Department.
    What's the best way to treat some institutions differently 
than others?
    Second, why should there be regional accrediting agencies? 
Why shouldn't they all be national or specialized according to 
the specific functions? That's a recommendation several of you 
made.
    And third, what about the Federal regulation that our 
commission told us was micro-managing accreditation that, Dr. 
Pruitt, you talked about and several of you mentioned, that 
Congress got into the business 20 years ago of saying, do all 
these things, and suddenly you're involved in a lot of things 
other than quality? What about that?
    When it gets to you, Ms. Neal, I hope you'll say a word 
about whether your direct recognition wouldn't just give the 
Department a license to start becoming what we call in K-12 a 
national school board and start trying to tell Harvard what to 
do about everything in exchange for. That's what it typically 
does when given an opportunity.
    Let's go to Dr. Ewell down to Ms. Neal.
    Mr. Ewell. OK. Very briefly, the risk-based kind of 
accreditation, the determination of a lighter touch can be made 
basically on two criteria. The first criteria is a trouble-free 
history of interaction with the Federal Government and other 
regulators. Essentially, they stayed within the law, there 
isn't a lot of controversy and so on.
    Another one of my proposals which echoes another one of 
Anne Neal's proposals is a much better set of statistical 
indicators. Institutions that have very good graduation rates, 
that have good graduate school placement rates, that have good 
licensure passage rates, et cetera, et cetera, that would be 
consideration as well.
    I will mention there is a risk associated with a risk base, 
and it's illustrated by the University of North Carolina's 
recent scandal. You can really have a fine track record and 
still go off the rails.
    The Chairman. I'll have to ask you all to summarize a 
little bit or we'll be way over time.
    Mr. Ewell. OK. I am very intrigued by the sector-based 
accreditation instead of regional. I just can't figure out how 
to draw the boundaries of it. We've talked about this since 
1992. The regional concept is clearly, in a certain sense, dead 
because we have global and online education. I can't think of a 
better way to do it because it's very, very hard to draw the 
sectorial lines. If somebody can show me how to do it, I could 
support that.
    In terms of the Federal regulations, no contest. I 
certainly believe that accreditors are not at all equipped to 
inspect Federal regulations. It distracts them from their main 
purpose. I think that there are other ways to get that done.
    The Chairman. Dr. Pruitt.
    Mr. Pruitt. Quickly, risk-based accreditation is a good 
idea. We should have the flexibility to treat institutions 
differently based on their strengths. We have to monitor all of 
them, and there's certain kinds of baseline data we get, 
particularly the financial stuff. We get audited reports; 
that's easy to track. But, yes, we should have differential 
accreditation based on the strength of the institution and the 
aspirations of the institutions. Remember, this was created by 
institutions because we wanted to be reviewed by our colleagues 
and peers, so I believe in that.
    The reason why we need regionals, there are real 
differences in the regions. Accrediting associations, yes, they 
are membership organizations, but they are also learning 
communities, and most learning communities vary around the 
country. Institutions like mine were all pretty much created in 
the Middle States region; it's no accident. They couldn't have 
existed in the southern association because at that time the 
regimens and the culture of the southern associations was 
different. Our kinds of institutions are throughout the 
regions. Otherwise it would be too big, too. You need a size 
where you can have a community and work through problems.
    The final one about the regulations, I can't say enough. 
They are strangling what's made this system great. We need to 
simplify, deregulate, and decentralize.
    The Chairman. Thank you.
    Dr. Gray.
    Mr. Gray. Thank you. I'll be brief.
    With respect to risk-based accreditation, ACICS already has 
a risk-based model in the sense that we've based the length of 
our accreditation cycle on the confidence that our council has 
in the institution that we're accrediting. Accreditation cycles 
can vary from as little as 2 years to as much as 6 years, again 
depending on the confidence that the council has during the 
review process.
    Second, on the issue--and also, I might add, higher-risk 
institutions are visited more frequently and monitored more 
closely for a number of parameters than those that we consider 
to be of lower risk.
    Second, no comment on the regional issue because we're a 
national accreditor. We are not regional. We cover, as I 
mentioned in my testimony, the entire United States, as well as 
a dozen foreign countries.
    With respect to Federal regulation, we have said on the 
record--you have it in our written testimony--that the Federal 
overreach is a problem for accreditation and maintaining 
quality assurance, and we think it has to be reduced.
    The Chairman. Thank you.
    Ms. Neal, I'm a little over, but I want you to take time to 
answer the question.
    Ms. Neal. Thank you. As we look at the lower-risk approach, 
this is going to be available to anyone. Essentially, any 
institution that can show that it's financially stable, that 
it's willing to offer various metrics in terms of demographic 
success, graduation rates, retention rates, and can also show 
student learning gains, this would be available to any 
institution. It doesn't privilege a Princeton, it doesn't 
privilege a Stanford. It actually will help elevate those 
schools that are doing a good job of offering educational 
value. It could be deemed a parallel track so that the existing 
system could remain for those that need greater attention.
    In terms of the regionals, quite frankly, I think the 
regional accrediting bodies are nothing less than cartels. 
We've allowed these bodies to carve up the United States and to 
basically have a captive market of those schools that are in 
their region. I think when we're looking at global higher 
education today, it makes no sense to have regional restricted 
bodies. In fact, many of them are busy accrediting 
international entities and others. Even in their own 
operations, they don't view themselves as regional.
    Your last question in terms of would this direct approach 
where institutions would provide information and ensure 
financial stability mean that the Feds would become more 
intrusive and more involved, I would submit to you that it 
would be less. Accreditors in this regime would not be second-
guessing mission, as they do now. There would be no Federal 
requirements about standardization of student learning outcomes 
and assessment. In fact, what we would do is free up the 
schools to have their different standards and to have their 
different programs, and they would voluntarily provide basic 
information about how they are doing and whether or not they 
are adding value in terms of student learning gains.
    I think that this actually frees up the institutions to 
pursue their own interests and to reach educational quality in 
their own ways, as opposed to having an external body that is 
empowered by the Federal Government as a gatekeeper to push 
them in ways they may or may not want to follow.
    The Chairman. OK. Thank you, and thanks to my colleagues. I 
thought that testimony would be interesting to all the 
Senators.
    I have Senator Franken next, Senator Scott, Senator Warren, 
Senator Murphy, Senator Bennet.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman. Thank you.
    Dr. Gray, ACICS, your organization, was one of the 
organizations that accredited many of the Corinthian College 
campuses. Corinthian recently filed for bankruptcy and closed 
many of its campuses. This has left over 16,000 students 
without a degree and with a ton of debt. I know there are a lot 
of different factors that caused the downfall of Corinthian, 
but I want to just focus on the accreditation piece here, and 
I'd like to get Ms. Neal's thoughts on this as well because, 
Ms. Neal, you said that in--I don't know what it was--60 years, 
not one school has been closed because of quality.
    Dr. Gray, in your role as an accreditor, what could you 
have done to prevent the closing of the Corinthian campuses or 
prevent it from putting the students in this position? Ms. 
Neal, is this symptomatic of something?
    Mr. Gray. Thank you, Senator Franken. As an accreditor, we 
were working with Corinthian for years. You mentioned we 
accredited roughly 55 Corinthian campuses, and they varied in 
terms of what's been characterized as risk here, from 
outstanding performers, medium performers, and in some cases we 
were monitoring them because we were concerned about their 
outcomes. None of those campuses, at the time that the change 
occurred, was mandated by the Department--the change of 
ownership, were actually out of compliance with accreditation 
criteria. In fact, student satisfaction surveys were high. 
Students were indicating high satisfaction with their 
experience in terms of educational outcomes with the Corinthian 
campuses.
    In the final analysis, Corinthian had some 120,000 
students. There are currently 90,000 students whose education 
at Corinthian was not interrupted by the process. The process 
was not really a closing down, as you know, of Corinthian. It 
was a change of ownership of Corinthian from a for-profit 
institution to Zenith Corporation, which is a non-profit 
institution that now operates virtually all of the Corinthian 
campuses without interruption to students, with the exception 
of California.
    Senator Franken. That is not the case, and there are 
students who are being left in the lurch there. I've talked to 
Zenith, and they acknowledge that, and they are going to be 
trying to make sure they do everything they can to give them 
some options. That's not the case----
    Mr. Gray. Well, they are giving them options, options to 
continue their education or to get refunds. My understanding is 
that's the case.
    Senator Franken [continuing]. The education may be 
providing them.
    Ms. Neal.
    Ms. Neal. I would have to agree that, as best I could tell, 
looking at the problems there, at the State level you had some 
allegations of fraud. I think the fundamental issues were 
financial, cash-flow issues. Actually, I believe that the 
direct expedited recognition for title IV might actually more 
adequately address these kinds of concerns because we need to 
be looking at the financial status of these institutions and 
see how they're doing. That was I think what fundamentally 
occurred there.
    Senator Franken. Weren't there courses that students would 
take and they wouldn't be able to get a job after? It was 
presented to them that they could get a job after? We've heard 
testimony in this committee of people who go through these 
courses and at the end of the day they were misled on what jobs 
they could get and were left with debt and no job prospects.
    Ms. Neal. I think that's certainly the case. That may very 
well be a consumer fraud issue that can be best addressed at 
the State level. Certainly, students that go to for-profits are 
not the only ones who get out of college and sometimes do not 
get a job. I think that's why----
    Senator Franken. Yes. If you're told that this is 
accredited to do sonograms, and then at the end of that no one 
who hires for sonogram technicians will hire you, that seems to 
be a little different than someone who graduates in the liberal 
arts and doesn't get a job right away because they don't 
necessarily have a degree that applies to an open job. Isn't 
there a different there? Isn't that a very big difference?
    Ms. Neal. I think there are a number of nuances there. I 
think the important thing is to be able to ensure the student, 
as well as the taxpayer, that institutions are financially 
sound, that they are not basically committing fraud, and in 
this instance I don't believe accreditors can be expected to 
catch fraud. If you have a situation of a cash-flow problem and 
basically not enough money, which I think was the case here, 
that can be addressed by looking more at the financial 
situation than looking necessarily at the academic quality.
    Mr. Gray. Senator, can I make one more comment? Because you 
asked about the role of accreditation. One thing I did want to 
point out is that ACICS, part of our accreditation role is to 
monitor this change of ownership and see that the 90,000 
students who are continuing through the Zenith process, that 
that change in ownership properly assures the quality of 
education and the outcomes are achieved. We have a process of 
reviewing the capabilities of the new owners, as well as a 6-
month quality assurance review of every campus under the new 
system to assure that what's in place is a quality educational 
experience.
    Senator Franken. I'm way over my time. I think that when 
you're accrediting an institution, there should be some look as 
to whether they're committing fraud in telling their students 
what their courses are about and they are, in fact, leading to 
any kind of licensure or meaningful accreditation that gets 
them a job.
    Mr. Gray. I believe we do that.
    The Chairman. Thank you, Senator Franken.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    Dr. Ewell, I know that in South Carolina the primary 
accrediting agency is SACS, the Southern Association of 
Colleges and Schools, and they have as their motto ``Students 
are critical to success.'' I noted that in your testimony you 
mentioned several times where you are in agreement with Senator 
Alexander's options for reform.
    Can you speak for a few minutes on how do we reform 
accreditation so that it provides students better opportunities 
to succeed?
    Mr. Ewell. Well, actually, one very simple idea is to 
include students in the accreditation process. That's done in 
Europe. It's not done here. They are the primary beneficiaries 
of the process. I think they would have intelligent things to 
say on review teams, and so on.
    I think the transparency issue is huge there. I mean, 
accreditation, whether it likes to admit it or not, does play a 
very strong public information role, and I think that a lot of 
the more recent moves that accreditors have made to open the 
process up are important in that regard as well.
    One of my ideas is also--and it's not just mine, others 
have advocated it--is having multiple levels of accreditation. 
You can get accreditation with distinction, or accreditation 
like an A, B, C, D kind of grade. Again, that would provide 
students and other members of the public with better 
information with which to make a choice. I think it's a crucial 
role for accreditors, and it's not being very well fulfilled 
now.
    Senator Scott. Yes. Thank you.
    Dr. Gray, I think Senator Franken was alluding to my 
question in some form or fashion. From your perspective, where 
does accreditation fit into the question of how institutions 
will be most able to prepare workers for the jobs of the 
future? The innovations we've seen over the last two decades 
have changed almost every sector of our economy, yet the 
accreditation system does not seem to have the right incentives 
in place to adapt. How do we harness competency-based programs 
and leverage accreditation so that our future innovators, 
entrepreneurs, and leaders enter the workforce with the high-
quality education they need to compete in our global 
marketplace?
    Mr. Gray. Well, I think that we need to be flexible and we 
need to work with our institutions and the Department in 
incorporating innovative educational modalities and techniques. 
I see us doing that. I think competency-based education, where 
we and other accreditors have recently again worked with the 
Department of Education to develop standards that allow 
institutions to adopt programs of competency-based education, 
is a start. We need to build on that. We need to do a lot more 
of that. We need to keep in mind when we're designing programs, 
just as you've mentioned, that those programs that we approve 
have to be programs that give employers what they need and for 
the workforce to benefit from the skills that students learn in 
these institutions.
    The other thing that accreditors do is work closely with 
employers. We research the employment world. We interview 
employers directly about their satisfaction with our students, 
determining where the shortcomings might be so that schools 
know how to redesign their programs to meet those areas where 
employers feel there needs to be greater strength.
    Basically better communication with the employers, working 
with the Department to get programs that are innovative 
approved and approvable are really the best ways that we can be 
responsive to the needs of the workforce. I think that career 
education schools, schools that we accredit, are the most 
responsive right now to the needs of the workforce, the most 
directly responsive.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Scott.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    Dr. Gray, as Senator Franken noted, your agency was 
responsible for accreditation for the campuses of Corinthian 
College, this for-profit outfit that recently closed down. 
Before it filed for bankruptcy, Corinthian was under 
investigation by 20 State attorneys general. Three AG's had 
filed lawsuits, as did the Consumer Financial Protection 
Bureau, all alleging that Corinthian lied to its students and 
defrauded them to get them to enroll. While this was all going 
on, you renewed accreditation for seven campuses in 2013, and 
right up to the bitter end you continued accreditation for 
others, keeping them eligible for Federal money, helping them 
draw in more and more students.
    IIT, another for-profit college chain, is still accredited 
by your agency. Currently, IIT is being sued by two Federal 
agencies and one State AG for deceptive practices, and it is 
currently under investigation by 18 other State attorneys 
general. Yet, your outfit continues their accreditation, 
keeping them eligible for Federal money and helping them draw 
in more students.
    So, here's my question. How many Federal and State agencies 
need to file lawsuits against one of your colleges before your 
organization takes a second look at whether that school should 
be eligible for accreditation and, most importantly, for 
Federal money?
    Mr. Gray. I don't think that the number of agencies that 
have an investigation or some type of action going on with one 
of our institutions is the issue that determines where they 
stand with us in terms of accreditation.
    Senator Warren. You may not think the number is important, 
but we know that you didn't do it when you had 20 attorneys 
general and a Federal agency. I just want to know how much you 
have to go through.
    Mr. Gray. Thank you, Senator Warren. As you can imagine, 
that's of great concern to us.
    We have a process. We have what we call an adverse file 
process. Every time any kind of an action by a State or a 
Federal agency is entered against one of our schools, we track 
that very carefully. Obviously, we get a response from the 
institution as to where they stand with respect to that 
allegation, and we track it very carefully. We have our own 
methods of investigating whether or not there's compliance with 
our criteria.
    Senator Warren. OK. You were aware of the fact that all of 
these investigations and lawsuits had been filed. You were 
tracking it, and yet you continued to accredit these outfits.
    Mr. Gray. We, as an accrediting agency, have an obligation 
and do have our own methods of investigation.
    Senator Warren. I'm sorry. Do your methods include if 
students have been lied to and defrauded by one of your 
colleges, that that might somehow count as a negative in the 
accrediting process?
    Mr. Gray. Absolutely. We have criteria covering 
institutional integrity that we diligently----
    Senator Warren. Then how did these institutions continue 
with their accreditation? You accredited them right up to the 
minute they closed.
    Mr. Gray. We accredit them as long as they comply with our 
accreditation criteria. Allegations----
    Senator Warren. Your accreditation criteria include whether 
or not they lied to their students.
    Mr. Gray. All of these investigations that you've mentioned 
are just that, they're investigations. Without outcomes from 
the investigations, we don't have evidence to take any kind of 
action. The only evidence we have is what we get from our own 
investigation.
    Senator Warren. Do you think there was no evidence that 
Corinthian colleges lied to their students? Is that what you're 
saying, that you independently investigated and you came to the 
conclusion that they did not lie, that they did not defraud 
their students, that the Department of Education now has this 
wrong?
    Mr. Gray. We consistently, not occasionally but 
consistently, during the accreditation process, review 
compliance with our criteria, including representation and/or 
misrepresentation to students. We come to the conclusion that--
--
    Senator Warren. How did you arrive at the conclusion that 
they could be accredited if you say you take into account 
whether or not they've lied to their students?
    Mr. Gray. Well, I think you have to understand the 
accreditation process.
    Senator Warren. Yes, I'm trying to do that.
    Mr. Gray. OK, I'll try to explain it. We hear allegations. 
We investigate those allegations. If there is substance in 
those allegations, we sanction the institution. If the 
seriousness of the allegations is sufficient, we put the 
institution on probation. If it's more serious than that, we 
withdraw--and the record shows we have----
    Senator Warren. I'm sorry, Dr. Gray. I'm still stuck, then, 
at the point, are you telling me that you found no evidence 
that Corinthian lied to its students and defrauded them?
    Mr. Gray. I will say we found no evidence that they lied to 
their students or defrauded them. We do have evidence, as I 
mentioned, that for some campuses they were not up to our 
standards, and those campuses were on monitoring, were on----
    Senator Warren. But you're monitoring them----
    Mr. Gray. Or sanction.
    Senator Warren [continuing]. And they continue to be 
eligible for Federal funds. For years, there have been concerns 
about Corinthian colleges. There were exposes, investigations, 
lawsuits, and yet the accrediting agencies continued to look 
the other way. Corinthian enrolled more and more and more 
students. It sucked down more and more and more Federal aid, 
while private accrediting organizations collected more and more 
fees. Students and taxpayers are stuck with the bill, while 
there is no accountability for the private accrediting outfits. 
I do not understand why they should be allowed to collect their 
fees and just walk away.
    If accrediting agencies aren't willing to stand up against 
colleges that are breaking the law, colleges that are cheating 
their students, then I don't know what good they do, and I sure 
don't know why we would let them determine which colleges are 
eligible for Federal dollars.
    Mr. Gray. I can only say that our council makes its 
decisions based on facts, not allegations, and all the 
decisions they made, if you look at the record, where there is 
sufficient information that indicates sanctions or 
accreditation should be withdrawn, that action has been taken. 
The integrity of the council in that respect has been beyond 
reproach.
    Senator Warren. Thank you, Mr. Chairman.
    The Chairman. We're going to move on now. Thank you, 
Senator Warren.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    God knows that we are at the top of the list of those that 
are loathe to admit mistakes, but you'd be better off to admit 
that this was a mistake. There would be much more faith in the 
accreditation process if you would just own up to the fact that 
Corinthian failed its students by every measurement. They 
failed their students financially. They are out of business 
today. They failed their students on an educational basis. Many 
of their campuses had 30 percent of students, if not more, that 
couldn't repay their loans. The prices for their degrees were 
often 10 times that of neighboring institutions. Former 
employees say that, ``We were working for the biggest scam 
company in the world.'' The Department of Education says that 
Corinthian violated students' and taxpayers' trust.
    I don't know, I just think you'd be better off to say we 
missed this one. Corinthian is out of business. They're under 
investigation and in active litigation with every other agency 
that looks out for students' interests. This was a bad call. If 
you're not willing to pull Corinthian's accreditation, or at 
least admit that you should have, then it's not clear whose 
accreditation you would ever pull, because I think every other 
institution within the Federal higher education hierarchy has 
determined that these guys were the worst of the worst.
    Mr. Gray. OK. I'd be the first to admit that accreditors, 
like any other organization, made mistakes. This was not one of 
those mistakes.
    Corinthian collapsed, if you want to use that term, because 
of financial pressure, not because of non-compliance with any 
regulation, OK? It was financial pressure. Corinthian's 
campuses, the institutions that are educating students, all but 
in California and two in New York, exist in full operation 
today without interruption. Those same students in those same 
campuses being taught by those same faculty under the same 
administrative people at those campuses are in operation today 
without interruption and are accredited.
    Senator Murphy. I have great respect for what you do. I 
think you're living on a different planet than everyone else 
who reviews the track record of Corinthian, and we can go 
through the litany of abuses that they are under investigation 
for today and the Department of Education considered when they 
shut them down. I think we've beaten this dead horse----
    Mr. Gray. I'm not here to defend accreditation. I'm sorry 
we have to talk about it this long. All I'm saying is I think 
the accreditation process was not the issue with Corinthian to 
the extent that, as you put it, they've gone out of business.
    Senator Murphy. Ms. Neal, I just want to talk about cost 
here for a second. Accreditors, I think we've heard from the 
panel, are not in charge of looking at cost and looking at 
affordability, and it's kind of unclear to me who is in charge 
of looking at cost, because we've got this triad, and yet it 
doesn't appear that either of the other two legs are looking at 
the issue of cost either.
    So what we've heard, and I think Dr. Gray mentioned this in 
his testimony, is that accreditors just aren't charged with 
looking at the issue of affordability. Should they be? If they 
aren't, and if they're not going to be in the future, who else 
in the regulatory system is charged with making sure that these 
products are affordable for students and matched to the value 
of the outcome that they're getting?
    Ms. Neal. Well, accreditors certainly aren't charged with 
looking at cost. In fact, what they are doing is they are 
adding costs. Obviously, you have to pay. It is a membership 
organization. There are immense costs in terms of the self-
studies. Stanford, MI, and others have said that they're 
spending often in excess of $1 million to prepare for these 
accreditation reviews. They have to hire extra people to come 
in and help them pull the paper together.
    The bottom line is that accreditation is certainly adding 
to cost, and there is I think very little expectation of value 
on the part of many institutions who are being forced to push 
paper and spend money on this kind of a process which has been 
outlined by many of you as not working in a way that makes no 
sense.
    Could I also just go back----
    Senator Murphy. Sure.
    Ms. Neal [continuing]. A little bit to your first question 
here? Clearly, you are concerned that the accreditors missed it 
when it comes to Corinthian. I would submit to you that it's 
not only this accreditor. It's SACS. We can look at almost any 
of these accreditors. They are telling students that they are 
going to get a quality education. They have accredited them. 
Many of these schools are graduating in single digits or low 
double digits. While Corinthian can be accused of not doing a 
good job, there are many institutions that are accredited, non-
profit and otherwise, that are not doing a good job either.
    I think it basically gets back to the bottom-line issue 
here, that the accreditors are not doing a good job of ensuring 
educational quality. No, they don't ensure cost, but they 
certainly aren't ensuring educational quality either.
    Senator Murphy. I don't think any of us want to suggest 
that Corinthian is the only bad actor out there or, frankly, 
hold any one accreditor responsible for the sins of that 
particular school. It should never get to the point that it got 
to with Corinthian. There's no reason that we have this system 
of accreditation if not to stop a college from getting to that 
crisis point at which students are being failed, en masse, to 
the point of going out of business. If we're going to fix the 
accreditation process, then Corinthian should be a bright 
blinking light as to an example of how this went badly wrong.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. I'm very glad you 
held this hearing because I came here wondering what the 
purpose of accreditation was, and now that question is even 
more fundamentally at issue, I think.
    I guess I would start--and I've heard from so many of my 
university presidents in Colorado who said sometimes we get 
some value from the peer review part of this, and that's good, 
and we do a little bit better, but overall the process is 
unbelievably burdensome, unbelievably un-useful, unbelievably 
unhelpful to us.
    I would start by asking this very fundamental question and 
ask the panelists just to answer it, if you can, in one or two 
sentences, which is: what is the purpose of accreditation? I'd 
start with you, Dr. Ewell, and just come down the panel.
    Mr. Ewell. The original purpose was the one you mentioned, 
to get better. It was a self-evaluation process that, in fact, 
I would submit and have talked to the Princetons and the 
Stanfords, they engage in those processes themselves, and they 
do get better. Accreditation and peer review helps them to do 
that.
    The accountability piece was added on later, and 
accreditors aren't as good at it as they could be. I'm darned 
if I can figure out an alternative that isn't going to----
    Senator Bennet. We'll come back to that.
    Dr. Pruitt, could you, just in a sentence or two, answer 
that question?
    Mr. Pruitt. It's the same. It's quality improvement. 
Accreditors assess how we do. We just don't accredit 
institutions in the sense that we subject ourselves to the same 
process.
    Part of the challenge we have is dealing with the 
sensational anecdotal evidence. We systematically survey our 
colleges, our presidents, our faculties about what's wrong with 
it, how do we fix it, and we fix the things that are broken. It 
has overwhelming support. If you look at the evidence, it has 
the overwhelming support of the colleges' university presidents 
that make up the membership of the institutions.
    Senator Bennet. Dr. Gray and Ms. Neal, do you have anything 
you would like to add?
    Mr. Gray. Yes. Accreditation has two basic, two fundamental 
purposes. One is assuring adherence to some level of minimum 
standards and judging that through a peer review process; and 
second, as has already been mentioned and equally important, 
it's continuous quality improvement through proper planning by 
the institution.
    Senator Bennet. Ms. Neal.
    Ms. Neal. Yes, just quickly. I agree. It started out as a 
peer review operation. It was self-improvement. It was teams 
coming in in a collegial fashion to help the institution know 
how it could do better.
    I think the problem that we have and the reason that we're 
hearing about the deficiencies is that when we then put a 
quality assurance enforcement obligation onto these peer review 
teams, that's when we started to have problems. It's a 
schizophrenic place where they find themselves, and I think 
they're not able, because they're essentially membership 
organizations working with each other, to do the hard kind of 
decisionmaking which actually will shut a school down.
    I think it gets back also to their role as guarantors of 
educational quality. What I think we've heard from everyone 
today is we don't know educational quality. They don't impart 
evidence of educational quality. It's a very opaque system. If 
a student goes to an accredited college, whether it's Harvard 
or another place, that student has no way of knowing if that 
school is graduating 90 percent or 5 percent.
    Senator Bennet. Right. I guess the way I would think about 
that is that the customers here ultimately are not the 
universities and not the university presidents. The customers 
ought to be the consumers of the higher education, who are the 
students and their families, who are making the determination 
about whether or not the place they're going is producing 
outcomes and whether they are getting the value from their 
education.
    Ms. Neal. Absolutely. I think the transparency is critical, 
and I also think it will help free the institutions themselves 
to be pursuing educational quality rather than having to listen 
to these external bodies who are trying to dictate to them what 
to do.
    Senator Bennet. What would be wrong--and anybody who wants 
to answer it, I'll start with Dr. Ewell--what would be wrong 
with Dr. Ewell's suggestion and your suggestion that we 
collect, whoever is the ``we'', but we ask schools to provide a 
handful of statistical data that tells us that they're at a 
minimum threshold, hopefully not just at a minimum threshold, 
and that we actually pay attention to the track record of 
universities, which the chairman was asking you? It seems like 
an incredibly sensible thing to do, and give a lighter touch to 
folks who seem to be performing than we do to people that 
aren't so we can focus our attention on the people that aren't. 
Why doesn't that get to the place we need to be without all 
this burdensome compliance that we're requiring, particularly 
in view of the fact that I guess the accrediting bodies haven't 
closed a place in 60 years, in your testimony, Ms. Neal?
    Mr. Ewell. I guess you were directing that at me.
    Senator Bennet. Yes.
    Mr. Ewell. Yes, I very much believe in the idea of having 
open, transparent pieces of information as part of the 
accreditation process. We are making some progress in that, but 
not nearly enough. They should be standard pieces of 
information. I think one of the difficulties is that people 
count things differently, and there are different ways of 
reporting things. We need a set of performance indicators as a 
dashboard, essentially, in all accreditation processes.
    Senator Bennet. Thank you, Mr. Chairman. I'm out of time. I 
appreciate the hearing.
    The Chairman. Thank you, Senator Bennet.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman. Thanks for the 
hearing. I appreciate our witnesses being here.
    Dr. Ewell, I was going to start with you on two questions. 
One is public reporting, and the other would involve students.
    I noted in your testimony on page 2, under the section 
headed ``Public Reporting,'' you say, ``Accreditors do not 
provide much information,'' or I should say, ``Until recently, 
accreditors did not provide much information on the results of 
institutional reviews,'' and then you go on later in the 
paragraph to say,

          ``Public reporting might be further improved through 
        the development of standard reports, listing the 
        strengths and challenges of each institution determined 
        in the course of a review,''

and you go on from there.
    Just on this issue of public reporting and transparency, 
what do you think is most needed?
    Mr. Ewell. As I say, the most important thing about the 
proposal that I'm making, which is not just mine--it's one that 
accreditors have, in fact, considered but just haven't gotten 
around to doing--is to say that as a result of a review, after 
an institution has engaged in a review, there should be a few 
bullet points that say basically this place is really good at 
this, and a few bullet points that say this place is not very 
good at this. It would be all backed up in terms of the 
qualitative findings of peer review, as well as quantitative 
indicators.
    You had another question?
    Senator Casey. I was going to followup on that one, as 
well. How about the additional question as to what's the best 
way to release the accreditation information? What do you think 
is the best format or----
    Mr. Ewell. I think there needs to be a fairly standard 
format so that people can compare across institutions in terms 
of a set of standard headings. A number have been proposed. One 
is that it would follow the standards of accreditation that the 
accreditor has put forward, so a standard of student learning, 
for example. I wish they all had them. If they did, it would be 
around that. The difficulty with that is that not all 
accreditors use the same headings to report things.
    The other alternative would be to develop a standard set of 
headings that everybody would be very much interested in, if 
people graduate from this place, do they get jobs, do they go 
on for further education, what are things like student/faculty 
ratios, and the quality of the student experience, et cetera.
    Senator Casey. I'll come back to you in a moment. Dr. 
Pruitt, anything on this that you want to add?
    Mr. Pruitt. Yes. I am a little bit disturbed that we ignore 
the current realities here. If you go on the website of any 
accredited college or university in the country, certainly ones 
accredited by the regionals, there are reams of pages of 
information about the institution, and performance data, and 
financial data. I believe that accreditation decisions made by 
an agency should be made public, and in many cases they are 
made public. Certainly in public higher education, they are all 
made public.
    I believe there should be common language used so that you 
can understand what they mean. The Council of Regional 
Accreditation came in and has done that. They are implementing 
that.
    There are many things that you've heard before this panel 
that just factually are not true. It is not true that 
accrediting bodies have not revoked accreditation from colleges 
and universities. You have to excuse me if I have some 
frustration about that because I think we need to start with 
what the objective realities are that are actually taking place 
in the field before we can formulate rational responses to 
them.
    Senator Casey. I wanted to go back to the second broad 
question about students and their involvement, or maybe it's 
their lack of involvement. What's your opinion on the role that 
students can play in this process?
    Mr. Ewell. Is that directed at me?
    Senator Casey. Yes.
    Mr. Ewell. OK. As I say, I think that students could be 
useful included on teams, or at least review the materials. One 
of the things that I talk about in my testimony is increasing 
use of expert panels that really know something about what it 
is that we're dealing with. Students know something. They know 
something about what the student experience is, and one could 
constitute the students as a separate review panel that would 
interview other students. There are a number of ways in which 
it's done.
    As I say, in Europe, where of course there are student 
unions and political involvement and so on, it's a very strong 
presence of students.
    Mr. Gray. I'd like to add that I know in the ACICS 
accreditation process, students play an integral part. Students 
are surveyed. There's a great deal of information derived from 
the students during the field team's visit, and we use student 
information to a great extent in doing the evaluation of the 
effectiveness of the educational process.
    Senator Casey. I'm out of time. Ms. Neal----
    Ms. Neal. If I could just add, I think that rather than 
putting students on these visiting teams and making them a part 
of accreditation, let's give them real information. Let's let 
them know what these schools are doing. Let's look at the 
graduation rates. It may be an imperfect metric, but it will 
tell them something which they cannot get from accreditation 
now. Let's use some of the data that schools are already 
putting on College Navigator, and let's pull it together and 
have them put it on their website so that families and 
consumers can actually find out how schools are doing. Let's 
rely on metrics that show student learning gains.
    When it comes to the accreditation, they are to be 
guarantors of educational quality. As I think we've heard, they 
have not guaranteed that. If we allow institutions to show that 
they are taking students and they are graduating them at or 
above predicted learning gains, then we can see actual quality, 
and then a student will be informed and will be able to know 
this is where I want to put my money as opposed to this 
institution. That's how I would propose to help students.
    Senator Casey. Thanks very much.
    The Chairman. Thank you, Senator Casey.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    I had another hearing this morning. This topic may have 
been raised already, so forgive me if I'm re-plowing plowed 
ground. I note that accrediting agencies receive their funding 
from fees that are paid by the colleges that they monitor, and 
that seems to set up a pretty significant potential conflict of 
interest.
    I'm interested in how that arrangement is different than 
the relationship between the Wall Street banks and the credit 
rating agencies which they paid to evaluate their products and 
which the credit rating agencies then gave wildly exaggerated 
ratings to that led to the financial collapse. It seems to me 
that where a regulatory body is being funded by the regulated 
entity, that creates a significant risk, and we've just had 
that experience in the banking sector. Can you explain why that 
should be a concern to us in this sector?
    Mr. Gray. In the world of accreditation--and my experience 
is well beyond education. In public health, for example, public 
health departments are accredited, and the sustaining of that 
accreditation comes from fees derived from the public health 
departments. Many other endeavors which are accredited are 
funded by the entities that they accredit. That's not uncommon. 
In fact, that's the normal model by which accreditation 
agencies operate and are funded. They're normally not funded by 
governmental resources. That's a different type of conflict of 
interest, which they don't want to have.
    Also, all the decisions that an accreditation body makes 
are made by its council. The council is scrutinized very, very 
thoroughly to make sure there is no possibility of a conflict 
of interest, and the processes that the council uses in terms 
of excluding certain members from discussions or decisions 
regarding certain institutions are very thorough and carefully 
documented.
    You go to great lengths to avoid conflicts of interest, or 
even the appearance of conflict of interest, and there's no 
preferential treatment given to any institution because they 
are paying fees.
    Senator Whitehouse. Ms. Neal.
    Ms. Neal. I couldn't agree more. It is a highly conflicted 
situation, and I think it's largely because peer review, which 
is colleague to colleague in a voluntary set-up, is fine, 
there's no conflict. When you make accreditors the gatekeepers, 
when they then basically become agents of the Federal 
Government and are responsible for deciding where $170 billion 
goes, it does become a serious conflict, which is why I think a 
direct expedited recognition process more analogous to 
companies which file for an IPO with the SEC would be a better 
way. It will take the burden away from institutions, it will 
provide information for students, and it will get ultimately to 
what we're trying to find out, whether or not colleges and 
universities are actually adding educational value, something 
that we really have difficulty finding out now.
    Senator Whitehouse. Let me get to that question. It strikes 
me that the accreditation has a role to serve as a proxy for 
direct student information, direct customer information, in the 
same way that when I look at the underwriter laboratory's label 
on a toaster, I don't have to be an electrician, I can have 
some assurance that it's not going to burn up or it gets the 
Good Housekeeping Seal of Approval, whatever that's worth.
    Let's hypothesize that we could create a dashboard of 
student information that completely replaced the proxy function 
of the accreditation, hypothetically, so that that function was 
no longer necessary. Are there other uses of this accreditation 
process that would still have value, assuming just the badging 
of it was fully adjusted for by having a really robust, 
accessible, clear dashboard of outcome measures that many of 
you have mentioned? Is that really the sole purpose of what the 
accreditation process is, to provide that proxy seal of 
approval?
    Mr. Pruitt. The confusion you're hearing and one of the 
things I think we all agree on, although we have very different 
points of view, is that part of the challenge we have is that 
there is a conflicted expectation of what accreditation is. You 
referred to it as a regulator. We are charged to do certain 
kinds of compliance reviews.
    We view our role as an assessor. An assessor behaves 
differently than a regulator. A regulator prescribes the 
behaviors of the institution. Accreditation does not prescribe 
the behaviors of the institution. You indicated a banking 
regulator----
    Senator Whitehouse. By threatening to not give 
accreditation unless the behavior is changed.
    Mr. Pruitt. No. Not the behavior, Senator, not the 
behavior, the outcomes that we produce, and there is a 
difference.
    Senator Whitehouse. Well, the behavior----
    Mr. Pruitt. There is a difference between the outcomes that 
we produce and the behaviors that we go to produce those. 
Regulators in banks prescribe the things that bankers can do 
and cannot do. Accreditors cannot prescribe what academics can 
do and not do, as long as the results are such that we can 
demonstrate that they have value to the people that support us 
and the students who----
    Senator Whitehouse. I guess my question was, outside of the 
proxy function of being a badge that its underwriter 
laboratories can say this is good, this is a good place for you 
to go to school, you'll get a good education, outside of that, 
what's the value of the accreditation process, Ms. Neal?
    Ms. Neal. Well, I think fundamentally the accreditation 
Good Housekeeping Seal of Approval has been proven not to be a 
Good Housekeeping Seal of Approval. It does deceive consumers.
    Is there a role for accreditation? Yes, I think there is a 
role for accreditation, to return to its voluntary self-
improvement role.
    I like to look at the lead certification program in 
architecture. It's an entirely private certification, and it 
has revolutionized the way we think about green buildings. This 
is an example of how a marketplace of accreditors who were no 
longer burdened by the gatekeeping role could actually create 
wonderful reviews that would tell consumers something. Right 
now, it's the lowest common denominator. All we know is that an 
entity is either accredited or not. If we set them free and we 
take away this enforcement gatekeeping role, they then can 
create sector-based. They could have gold, silver, platinum 
vis-a-vis higher education. They could do ones for research 
institutions, they could do those for comprehensive. They 
really could come up with a range of differentiated programs 
that would actually allow us to understand whether a school was 
doing a good job at something or was better at another thing.
    I think if we took the gatekeeping role away from them, we 
would end up having a very rich marketplace of signifiers to 
consumers as to what schools could do and not do.
    Senator Whitehouse. Thank you, Mr. Chairman. I've gone over 
my time. I appreciate your indulgence.
    The Chairman. Thank you, Senator Whitehouse.
    And thank you to the witnesses. This has been a lively and 
wide-ranging discussion of many options having to do with 
accreditation.
    What I'm going to do to conclude the hearing is make an 
observation or two, and then I'm going to ask each of you if 
you have any last word that you'd like to make for a couple of 
minutes, because you've heard a lot and you may have something 
that you'd like to say, and I'd like to encourage you, if you 
have more to say. I'd welcome, and so would other committee 
members, your further written testimony. I think the Senators' 
participation has been interesting, and your testimony has been 
interesting.
    As I've listened to my colleagues talk, I'm in about the 
same position as Dr. Ewell is. When we say ``we would do this'' 
or ``let's do this,'' great. But who is the ``we'' and who is 
the ``let us?'' I think the reason we've ended up with the 
accreditors as the gatekeepers for title IV is because we were 
pretty sure Congress didn't have the capacity to do it. We know 
ourselves well enough to know that. Many of us are very 
skeptical of the ability of the U.S. Department of Education to 
take on an assignment like that because it's one of the 
smallest departments. It doesn't have much capacity for this 
kind of thing. Whenever it has tried to do it--for example, in 
defining student achievement a few years ago--there was a huge 
rebellion throughout the campuses.
    It's hard for me to see the alternative to a properly 
functioning system of accreditation to a validation of whether 
a university or college should receive title IV funds. Just 
speaking for myself, there are a number of suggestions here 
that I think we ought to think more seriously about, and we 
intend to reauthorize the Higher Education Act later this year. 
Senator Murray and I hope to have a bipartisan proposal for the 
committee to begin considering in September, and we'd welcome 
your specific suggestions, whether they're the 3 of Dr. Neal or 
the 11 of Dr. Ewell or some version of the improvements of Dr. 
Gray and Dr. Pruitt.
    The ones that seem to me that I think we hear more 
consensus about is to the extent the accreditors continue the 
gatekeeper role, their focus should be on quality and not all 
these other things that Congress has imposed on the 
accreditors. I think that has turned out to be a mistake and 
interferes with what we would hope accreditors would do, and 
we're going to address that directly and I hope successfully.
    The second idea I hope we will consider, and I know, Dr. 
Pruitt, you and your colleagues may not agree with this, and 
Dr. Ewell hasn't figured out how to draw the lines, but it 
seems to me there's a lot less validity today for regional 
accrediting agencies exclusively. When I was president of the 
University of Tennessee, I looked at the University of 
Illinois, the University of Michigan, universities outside our 
region as peers. I wonder if there's not some room there for 
discussion.
    There also seems to be a good deal of agreement that a 
lighter touch for some institutions as opposed to others is a 
good idea, and we're going to look at ways to do that. That 
just makes common sense, and I think there's a focus on that. 
Maybe in your final remarks, Ms. Neal, you'll explain to me how 
we can trust the U.S. Department of Education to just recognize 
a college or university without getting enthusiastically into 
the business of defining what student achievement is at Harvard 
and whether the Department of Education is really competent to 
be the one to decide whether you learned more after 4 years at 
Harvard than you knew when you arrived.
    Maybe that's true. Maybe there needs to be a pilot program 
that tries that and creates a parallel way for people to get 
recognition for title IV, see what happens with it.
    Those are some of the areas that I think are promising, and 
this is a chance to improve what we're doing or change what 
we're doing.
    Let me thank the witnesses, invite your later comments. 
We'd like to have them in 10 days if you make them. We'll have 
another hearing on the reauthorization of the Higher Education 
Act in the July 4th recess, and one of our future hearings will 
have to do with innovation and all of the new things in our 
lives today, are there any adjustments we need to make in the 
Higher Education Act to permit colleges and universities and 
students to take advantage of the new ways of learning.
    That will conclude the hearing after your final comments.
    Let me start with you, Dr. Ewell, go down the line. Thank 
you for being here. I'd ask if each of you would like to take a 
couple of minutes and offer a last word.
    Mr. Ewell. Very, very briefly, because I've gone over my 
time on many occasions. Let me agree with the idea of pilots. I 
think that a good deal of experimentation in some of these 
uncharted areas which are not institutionally based, the kinds 
of things like badges, MOOCs, other kinds of providers, they're 
providing a good deal of education at this point. Accreditation 
should have picked them up but hasn't done so. I'm a little 
disappointed with that. I think that's something that needs to 
be done.
    Then one other very specific thing. We spent a lot of time 
on Corinthian. We haven't mentioned one other thing that's 
being played out right now, and that's the conflict between San 
Francisco City College and the WASC Junior Commission, who is 
trying to sanction a very bad institution, the difficulties 
that an accreditor gets into when they try to actually sanction 
due to contrary legal action and all kinds of things like that. 
I think there needs to be some things that stiffen their 
backbone a little bit in terms of limitations of liability and 
things of that sort. That's not in my testimony but it's 
something that occurred to me.
    The Chairman. Thank you, Dr. Ewell.
    Dr. Pruitt.
    Mr. Pruitt. Very briefly, Mr. Chairman, you've been part of 
a continuum of activities in terms of the Task Force on 
Regulation, so this hearing has context. I think, for the sake 
of time, I pretty much agree with you, where you've come out in 
terms of your processing of all of this.
    The only comment I would have about the issue about the 
regionals, there's no sanctity in any particular one structure. 
I would say, though, that regionals do allow institutions to 
peer reference, and they peer reference to institutions 
wherever in the world those peers may be. They are not limited. 
There is nothing in the world that I'm aware of that would have 
kept the University of Tennessee from referencing and measuring 
itself against either Illinois, Michigan, Stanford, or 
Cambridge for that matter. There is that flexibility built into 
the system.
    My final comment is, and as I said earlier, there's a lot 
of anecdotal stuff flying around that defines the realities 
that conflict with what the evidence says the realities are. I 
would hope at the end of the day, as we consider policy, we go 
back to what the evidence says and give that more weight than 
some of the anecdotal stories that would otherwise influence 
it. Thank you.
    The Chairman. Thanks, Dr. Pruitt.
    Dr. Gray.
    Mr. Gray. Thank you, Senator Alexander. I would just say 
that I would hope, as the reauthorization of the Higher 
Education Act moves forward, that we continue to consider with 
respect to accreditation refocusing on the academic quality 
aspect of accreditation; also, looking for ways, as I 
mentioned, to reduce regulatory overreach and the regulations 
related to accreditation.
    I would also say, on the subject that I've heard discussed 
this morning regarding delinking the gatekeeping role from the 
accreditation role, I disagree. I think what was described by 
Ms. Neal was kind of a utopian accreditation endeavor that 
would happen if, in fact, that linking was deactivated. In 
fact, what I see would happen would be, first of all, a 
decrease in the motivation to be accredited. That's a bad 
thing. Second, fewer accredited schools. That's not a good 
thing for the students, and the students are the benefactors, 
the customers that we're most concerned about here. Frankly, 
there would be no good quality assurance resource available to 
the Department of Education in making their decisions.
    Finally, it's perplexing, but I'd like to see a mechanism 
somehow to better educate policymakers and the public about the 
role of accreditation. Some of the comments I've heard this 
morning about Corinthian say to me that there's a lot of 
misunderstanding about accreditation, in particular with 
respect to Corinthian, but accreditation in general with 
respect to its role in the sustainability of educational 
institutions.
    The Chairman. Thank you.
    Ms. Neal.
    Ms. Neal. I want to thank you, and I know I'm the last 
between you and departure, so I'll try to be brief.
    I certainly think we've heard that the system is not 
functioning well and that it desperately needs improvement and 
deregulation. I think it's interesting that often, when schools 
are asked if the accreditation was delinked what would you do, 
many of them say, ``well, I would not want to continue'' 
because they find no value with the existing accreditation 
process, and I think that's more of a testimony to the way it 
operates now than necessarily to the value of a good, 
functioning peer review self-improvement process.
    In terms of the direct expedited recognition, lighter touch 
approach, I submit that it does not necessitate a larger 
Department of Ed involvement. In fact, the DOE should have a 
very limited role. It would retain its existing oversight in 
terms of financial responsibility, but in terms of other 
actions it could take against institutions, because the 
institution would be submitting audited data, the ability of 
the DOE to act would be largely in response to finding that 
that data was false and acting against an institution that had 
supplied erroneous information.
    I think in terms of the data about student learning, again 
that would not be the role of the Department of Education. That 
would be offered by nationally normed tests such as the 
Collegiate Learning Assessment, the Proficiency Profile. These 
are tests which I think offer a special opportunity for schools 
that may not be famous like Harvard to show that they are 
offering student learning gains because they take the students 
where they are and they assess whether or not they are at or 
above predicted learning gains. Not all institutions would be 
expected to be operating at the same level, but they would 
actually adapt to the particular population.
    I think it offers a wonderful opportunity for schools with 
varying populations to show whether or not they're doing a good 
job and to give the institutions the autonomy they need.
    The Chairman. Thank you, Ms. Neal. Thanks to each of you 
for coming today and for interesting testimony.
    The committee hearing is adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

                                             ACICS,
                                 Washington, DC 20002-4223,
                                                     June 30, 2015.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: ACICS 
appreciates the opportunity to appear before the Senate HELP Committee 
on June 17, 2015. We hope the information provided will help the Senate 
clarify and strengthen the role of accreditation in the Higher 
Education Act. As a supplement to the information provided in writing 
and in person, ACICS offers additional perspective below for the 
record.
    ACICS acknowledges the intense interest of Congress in the current 
state of post-secondary education, and the discipline of quality 
assurance that is intended to protect students and taxpayers. The 
demise of a post-secondary institution is always a source of great 
distress and displacement, particularly for the students. To the degree 
the accrediting community, the U.S. Department of Education and 
appropriate State authorities can collaborate on reducing the incidence 
of student displacement, ACICS welcomes all constructive ideas. The 
Council takes its responsibility very seriously, and is committed to 
improving its effectiveness on behalf of students.
    Questions were raised at the hearing regarding the bankruptcy and 
closure of Corinthian Colleges Inc. (CCi). The limited time and 
constrained format did not allow ACICS sufficient opportunity to fully 
answer all of those questions. The information below is offered in that 
spirit.
    Four CCi campuses accredited by ACICS (three in California, one in 
New York) before revocation on April27, 2015, served approximately 
4,000 students. More importantly, more than 90,000 students enrolled at 
37 campuses sold to Zenith Education Group (ZEG) and accredited by 
ACICS continue today in their studies under a valid grant of 
accreditation and the approval of State and Federal authorities.
    To re-emphasize the oral testimony, all of the 59 campuses owned 
and operated by Corinthian and accredited by ACICS had their 
accreditation intact up until the campuses were either sold or ceased 
operations. All had been subject to at least one full site review 
between 2012 and 2014. The site reviews found most of the campuses to 
have few if any quality issues; some had several quality issues and 
were subject to deferrals and other sanctions pending their 
demonstration of full compliance with Council standards. In addition, 
ACICS 's review of student satisfaction data indicated satisfactory 
performance by most, if not all, of the campuses.
    Students currently enrolled at campuses operated by ZEG have been 
given the opportunity to continue with their current program, transfer 
to a different program without financial hardship, or terminate their 
enrollment and receive a refund. As is the case for every change in 
ownership of an ACICS-accredited college or school, a team of senior 
officials from ACICS will review the administrative and academic 
capacity of ZEG's corporate headquarters this summer. This requirement 
is applied consistently within 6 months of any change of ownership. In 
addition, every ZEG campus will be visited in 2015 for quality 
assurance by experts in post-secondary education.
    In acknowledgement of expressed sentiments, ACICS standards, 
policies, and program of quality review are based on expectations of 
honesty and integrity in relations with students, education quality 
that enables completers to pass required licensure exams, and 
institutional effectiveness that leads to employment. More than 25 
explicit standards in the ``ACICS Accreditation Criteria'' address 
these dimensions of integrity, and the requirements are tested through 
more than 50 discrete questions that must be answered and supported 
through interviews, observations and documents at each campus during 
each full team review.
    ACICS has not concluded its thorough review of the validity of the 
allegations of misrepresentation contained in numerous investigations 
by State attorneys general. The evidence available has been general and 
broad, lacking specificity regarding time, place, individuals and 
circumstances. Evidence of that specificity is necessary in order for 
ACICS to reach an informed and considered decision regarding the 
institutions' compliance with standards of integrity; relations with 
students including recruitment; advertising and misrepresentation; and 
public disclosures. In total, ACICS applies more than 91 standard 
questions regarding those topics at each campus during each full team 
review.
    Inquiries and investigations by State attorneys general regarding 
the relations with students at CCi campuses began in December 2012. 
During the next 2\1/2\ years, ACICS was notified of, tracked and 
analyzed open inquiries by State attorneys general in 15 States. In 
every case, ACICS required CCi to provide written evidence of their 
cooperation with the inquiries and any final determination. In all 
cases, those inquiries were in the discovery phase as of April 27, 
2015.
    ACICS was meticulously tracking and analyzing student complaints 
and adverse third party information before, during and after the U.S. 
Department of Education applied conditions to the company's Federal 
student aid disbursements beginning in June 2014. The pattern of 
student complaints has substantial weight with the Council, because 
accreditation actions that enhance the student experience are a high 
priority. An analysis of those complaints indicated that for the 4-
years preceding the demise of CCi, ACICS received less than one student 
complaint per campus per year. The analysis also shows that those 
complaints primarily focused on three issues: financial aid (disputes 
about account balances), faculty issues, and lack of externship sites. 
About two-thirds of the complaints concerned the first category. Most 
of the complaints did not merit action by ACICS because they did not 
relate to a specific quality assurance standard, or the school was able 
to demonstrate compliance with ACICS accreditation criteria. Direct 
surveys of students indicated general satisfaction with the education 
provided, and a willingness to recommend the institution to others.
    Determinations of institutional quality and integrity by Council 
are based on material information sources and methods of inquiry. Those 
sources are augmented by information provided by students, faculty, 
staff, and third parties, including the news media, plaintiff 's 
attorneys and State consumer authorities, such as attorneys general. 
None of those sources of information are necessarily decisive by 
themselves in making a thoughtful and comprehensive evaluation of the 
institution. Rather, the Council takes all of those into consideration, 
applies its own judgment and experience, follows the required due 
process protections and makes a final determination.
    Schools are required to include in their Institutional 
Effectiveness Plan goals for employer satisfaction and mechanisms to 
survey employers periodically. Expert evaluators scrutinize the plan, 
as well as data collected and analyzed by the institution to make sure 
that information from the employer community is shaping educational 
programming. In addition, each program is required to establish a 
community outreach mechanism, such as a program advisory committee, 
that solicits from the workforce community its emerging needs and 
requirements.
    One of the conclusions expressed was that CCi ``failed its 
students'' in terms of financial stability, in terms of educational 
quality, as measured by Cohort Default Rate (CDR), and price of 
attendance. ACICS had diligently reviewed audited financial statements 
from CCi for each of the preceding 4 years and found no evidence of 
systemwide financial instability. CCi was subject to additional 
monitoring and reporting at the corporate level by the Council in part 
due to the conditional participation in title IV programs imposed by 
the Department.
    Under the financial monitoring requirement, CCi developed and 
submitted for ACICS's review a teach-out plan to protect the interests 
of currently enrolled students. When 37 campuses were sold to another 
organization, the requirement of teach-out plans to serve those 
students was rendered moot. However, CCi did not fulfill the teach-out 
requirements for the four Everest campuses which closed in late April; 
the Council will review at its August 2015 meeting the degree to which 
students were displaced by the sudden cessation of operations and 
decide appropriate sanctions to apply to members of the Corinthian 
leadership team.
    Regarding the repayment of loans by students, none of the Everest 
Colleges had student 3-year CDRs (2014) in excess of 30 percent, the 
rate at which schools are in jeopardy of losing their title IV 
eligibility. This CDR information is provided independently to ACICS by 
the U.S. Department of Education.
    ACICS's standard process regarding loan repayment performance is to 
review the CDR rates of all institutions every year. Schools with a 
default rate above the Department's threshold are required to submit an 
improvement plan subject to Council review. The type of students that 
member institutions serve--many come from disadvantaged socio-economic 
backgrounds or households--contributes to higher rates of loan default. 
ACICS is unaware of any evidence that institutions with higher CDRs are 
necessarily of lower quality than institutions with lower CDRs; ACICS 
is aware of numerous studies that show CDR and demographics of the 
student population to be directly correlated.
    Finally, ACICS has developed no standards regarding the prices 
charged to students by member institutions. Nor has ACICS imposed 
maximum tuition rates at member institutions. Regulating the cost of 
attendance is clearly beyond the authority of accreditation and outside 
the purpose of quality assurance. However, as offered in ACICS's 
written testimony, the Council has a direct interest in evaluating the 
value component of the price/value proposition through its program of 
quality assurance. The Council will continue to refine and enhance its 
methods of review to ensure that students attending member institutions 
realize the greatest possible benefit for their emotional, spiritual, 
intellectual, temporal and financial investment.
    To summarize, the primary role of ACICS is to assure quality and 
promote excellence. A secondary role is to ensure institutions adhere 
to minimum standards of quality and integrity. When an institution 
falls below standards, it is subject to sanctions, including deferrals, 
additional reporting, show-cause directives, probation and ultimately 
loss of accreditation. The chart below reflects how frequently ACICS 
accredited institutions have faced sanctions and penalties:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In conclusion, more than 90,000 students enrolled at ZEG campuses 
accredited by ACICS continue in their studies under a valid grant of 
accreditation and the approval of State and Federal authorities. 
Whatever deficiencies of accreditation have been enumerated, the facts 
indicate that while ACICS continues its efforts to improve, 
accreditation is working and performing the job it was assigned by the 
Higher Education Act. ACICS welcomes the opportunity to respond to any 
additional questions or inquiries you may have.
            Sincerely,
                                     Albert C. Gray, Ph.D.,
                                                 President and CEO.
                                 ______
                                 
    Response to Questions of Senator Murphy by Peter T. Ewell, Ph.D.
    Question 1. When institutional performance and student achievement 
information is self-reported by institutions, how do accreditors verify 
its accuracy?
    Answer 1. This varies a lot by accreditor, and even by 
accreditation team. The most rigorous position is probably in teacher 
education where the Teacher Education Accreditation Council (TEAC)--now 
merged with the Council for Accrediting Education Programs (CAEP)--
performs ``audits'' of all supplied data to verify the reported 
results. But this is much more rigorous than practiced by most 
institutional accreditors. Most ask institutions to supply details of 
the reported results--what methods were used, how the results were 
analyzed, etc.--and use the interviews during site visit(s) to try to 
explore or verify the results reported, but this is not very 
systematic. Some are exploring audit methods as above (e.g., WASC 
Senior Commission) and some use explicit ``rubrics'' or scoring guides 
to rate the quality (and presumed veracity) of institution-reported 
results. But this is a very good question and it should probably be 
asked systematically during NACIQI's consideration of each accreditor's 
gatekeeping status.

    Question 2. In a recent SEC filing, ITT Tech informed investors 
that 69 ITT locations were not meeting the ACICS threshold for student 
outcomes and 25 locations were not meeting student placement 
thresholds. If shareholders need to know this information, should 
students be made aware of this as well? What role can accreditors play 
in increasing disclosure of institutional problems?
    Answer 2. I believe that all relevant information about 
institutional performance should be disclosed as part of the 
accreditation process. This includes information about student academic 
achievement, student success (retention, graduation and job placement), 
and key student experiences. There may be cases where information about 
finances (bond ratings reported confidentially by an external rating 
agent, for example) might appropriately be reported to shareholders not 
the public. But, in my view, these should be exceptions.
   Response to Questions of Senator Murphy by George A. Pruitt, Ph.D.
    Question 1. When institutional performance and student achievement 
information is self-reported by institutions, how do accreditors verify 
its accuracy?
    Answer 1. In answer to your question, I am speaking from my 
perspective as chair of the Middle States Commission on Higher 
Education (MSCHE).
    The Middle States Commission is concerned about appropriate 
institutional generation and use of both student achievement and 
student learning outcomes information. Our peer evaluators are charged 
with responsibility for reviewing institutional self-studies that 
address topics related to academic performance, including the 
assessment of student learning; student admissions and retention; and, 
institutional integrity, including the provision of information on 
institution-wide assessments available to prospective students, 
including graduation, retention, certification and licensing pass 
rates, and other outcomes as appropriate to the programs offered. When 
reviewers find an institution out of compliance or in danger of non-
compliance, those situations are publicly recorded in Commission 
actions that are listed by institution on the Commission's website. As 
warranted, institutions may be asked for further followup in specific 
areas.
    Institutions are also asked to annually submit institutional 
profile data that is reviewed by Commission staff. Information on 
graduation and enrollment is included. Staff review the data submitted 
and will contact the institution if there appears to be any 
inconsistency in the data or if analysis reveals any concern. Staff may 
informally request additional information or may request a formal 
supplemental information report if the situation warrants.
    MSCHE also annually reviews institutional Web sites of member 
institutions to determine whether required consumer information is 
available. Followup is initiated with the institution if data is not 
accessible or if there are questions or concerns.
    Over the past several years, MSCHE has engaged in an effort to 
separate and clarify Commission responsibilities related to compliance 
with Federal regulations. In order to accomplish this, we have 
developed a separate process addressing Verification of Compliance with 
Accreditation-Relevant Federal Regulations in which a peer evaluator 
specifically reviews institutional submissions and provides results for 
further consideration by review teams and the Commission. Among the 
data required in the upcoming 2015-16 year, institutions must provide 
information about graduation and completion, and (as appropriate) 
licensure pass rates. The peer reviewer assigned is asked to determine:

    <bullet> Whether the institution appropriately documents and 
publishes required information and whether it is reasonably accessible 
to the public; and,
    <bullet> Whether the methods, policies, and procedures documented 
by the institution are reasonable for their purpose.

    Question 2. In a recent SEC filing, ITT Tech informed investors 
that 69 ITT locations were not meeting the ACICS threshold for student 
outcomes and 25 locations were not meeting student placement 
thresholds. If shareholders need to know this information, should 
students be made aware of this as well? What role can accreditors play 
in increasing disclosure of institutional problems?
    Answer 2. My answer to this question is informed by my experience 
as president of Thomas Edison State College, an institution serving 
non-traditional students as well as my experience as chair of the 
Middle States Commission on Higher Education. MSCHE is not the 
accreditor of ITT Tech, and I cannot address the specifics of that 
case.
    MSCHE is fully committed to disclosure of important information 
about the status of accreditation for each member institution. Toward 
that end, the Commission has for years published on our website a 
Statement of Accreditation Status (SAS) for each institution. The SAS 
shows general institutional information as well as details about 
accreditation actions taken by the Commission, including specific 
references to standards where non-compliance has been found or followup 
is required. Further, where non-compliance actions (warning through 
show cause and withdrawal of accreditation) are taken, a public 
disclosure statement is posted to further explain the actions taken and 
the next steps required of the institution.
    In my testimony before the committee, I touched on two areas that 
are relevant to this discussion. Let me first address the concept of 
one-size-fits-all templates, metrics, and bright lines. I do not know 
what the thresholds were for ACICS student outcomes or placement and 
therefore cannot comment specifically about them, but I am thoroughly 
convinced that it is never a good idea to mindlessly apply a set of 
bright line indicators without understanding the context, and that it 
is not a good solution to allow metrics to replace thorough analysis by 
qualified peer evaluators. For example, I noted that graduation rate 
statistics are not a good measure of success for Thomas Edison's non-
traditional students who do not move through college in the assumed 
progression. Alternative information such as pass rates on professional 
licensure examinations is more meaningful for the student population 
served. The point is that the context is essential and should not be 
lost in a search for a single, simple measure.
    It is also important to touch on the concept of full transparency/
disclosure in the accreditation process. As indicated above, MSCHE 
fully discloses accreditation actions for each member institution. 
However, the Commission currently does not allow full transparency with 
regard to all accreditation documents. It is my opinion that doing so 
would change the nature of the interaction between accrediting agency 
and institution. Looking toward the future, however, I offered the 
opinion that the work product of accreditation might remain protected 
while some consideration could be given to disclosure of team reports 
or summaries of those reports. I would hope that disclosure of reports/
summaries might allow for consideration of all-important contextual 
information
    Response to Questions of Senator Murphy by Albert C. Gray, Ph.D.
    Question 1. When institutional performance and student achievement 
information is self-reported by institutions, how do accreditors verify 
its accuracy?
    Answer 1. An ethic of trust in self-reported data is made stronger 
when its accuracy, timeliness and completeness are subject to 
verification through a series of recurring tests and reviews. During 
the in-person accreditation review of member institutions, ACICS 
examines the back-up data and documents that are the basis for annual 
accountability data reports. Typically, a random sample of student 
achievement outcomes--such as placements or success on licensure 
examinations--is reviewed in depth by program specialists. They examine 
the completeness of the required back-up documentation and interview 
administrative personnel regarding the manner in which the information 
was collected, aggregated and reported. Further, the program 
specialists place calls to employers and graduates to verify the 
information captured in the institutional records. If a pattern of 
incongruence manifests, the institution will be required to submit its 
data to additional tests of veracity and could be subject to sanctions 
by the Council, including probation or loss of accreditation.
    ACICS is piloting a Placement Verification system where at random 
every claimed placement is directly verified by ACICS through 
communications with the student and/or employer. The verifications 
would be applied to data received by ACICS in between recurring in-
person accreditation reviews.
    As is the case for all institutional data reported by all colleges 
and universities in the United States, the integrity of institutional 
data, utilized by ACICS and its accrediting Council to make 
accreditation decisions, is assumed to be sound. A trust relationship 
between the quality assurance authority and educational institution is 
paramount to the effectiveness of the self-governed discipline of 
voluntary accreditation.

    Question 2. In a recent SEC filing, ITT Tech informed investors 
that 69 ITT locations were not meeting the ACICS threshold for student 
outcomes and 25 locations were not meeting student placement 
thresholds. If shareholders need to know this information, should 
students be made aware of this as well? What role can accreditors play 
in increasing disclosure of institutional problems?
    Answer 2. ACICS requires all institutions to disclose student 
achievement information on a regular basis. Most fulfill that standard 
by posting on their Web sites institutional performance data as 
reported to ACICS, including retention, placement and licensure exam 
pass rate data. ACICS is developing enhancements to this standard to 
strengthen the quality and value of student achievement information 
that is shared with the public.
    Disclosures of compliance risk by publicly traded education 
enterprises are required by Federal securities law, and fulfill 
expectations of transparency by the investment community. In this 
particular case, the institution--not ACICS--determines which findings 
of its latest accreditation review rise to the level of mandatory 
disclosure. The principle applies to all publicly traded higher 
education companies, not just those accredited by ACICS.
    The thresholds in question are self-improvement points of reference 
established by ACICS to encourage an institution to improve performance 
in certain discrete areas well in advance of its performance falling 
below minimum quality standards. Disclosing all of those ``early 
warning'' indicators to the public or students for every program each 
year would also require the conveyance of substantial narrative 
explaining the significance and weight associated with each indicator. 
The Council uses the ``early warning'' information to focus its quality 
assurance conversation with the institution on issues that are most 
salient and current. In no event would an institution that fell below 
the improvement threshold for placement or retention, absent any other 
information, be deemed to be of low quality by the Council or subject 
to negative or adverse actions. If the sub-standard performance 
persists, and the institution demonstrates a fundamental inability to 
meet Council standards, ACICS would impose formal sanctions that would 
be disclosed publicly, to the U.S. Department of Education and State-
approval authorities.
    ACICS is always open to considering alternative ways to make 
available to interested parties the quality findings of its 
accreditation reviews. As long as the institution has the opportunity 
to respond to those findings, and the Council's final decision takes 
into consideration that response, the final action complies with 
statutory and regulatory requirements. Disclosures that are not based 
on the full accreditation process are unfair to the institution, 
misleading for consumers, and contrary to Department regulations and 
Federal statute: the accrediting agency is required to provide 
appropriate opportunities for response to preliminary findings before a 
negative action is taken or published.
        Response to Questions of Senator Murphy by Anne D. Neal
    Question 1. When institutional performance and student achievement 
information is self-reported by institutions, how do accreditors verify 
its accuracy?
    Answer 1. Accreditors require institutions to write an extensive 
self-study and to assemble a veritable room full of documentation for 
the visiting team to examine. These preparations typically require 
several faculty and staff members dedicated to the task for many months 
prior to the visit, which is one of the reasons that institutions find 
the accreditation process highly burdensome and expensive.
    Unfortunately all of this work demanded of institutions does not 
protect students or taxpayers from malfeasance. It took the Southern 
Association of Colleges and Schools (SACS) 19 years to become aware of 
University of North Carolina's fraudulent grades, given in large 
measure to athletes. Claremont McKenna College inflated its SAT scores 
and class rank for 6 years. These are hardly unique scandals and 
underscore the inability of accreditors to monitor the information they 
receive effectively.
    Moreover, the decennial nature of the accreditation process makes 
the information outdated even if it is accurate The alternative system 
proposed by ACTA in our testimony http://www.help.senate.gov/imo/media/
doc/Neal1.pdf would insist that institutions provide key consumer 
information annually and have it already audited by an independent 
third party when it is provided, making the institution then subject to 
sanctions for misrepresentation. This would be far more effective than 
the ``data dump'' of largely unverified information that is the current 
accreditation process.

    Question 2. In a recent SEC filing, ITT Tech informed investors 
that 69 ITT locations were not meeting the ACICS threshold for student 
outcomes and 25 locations were not meeting student placement 
thresholds. If shareholders need to know this information, should 
students be made aware of this as well? What role can accreditors play 
in increasing disclosure of institutional problems?
    Answer 2. Yes, students, taxpayers, and policymakers need this 
information to be clearly and unambiguously reported. And for this 
reason, in testimony from the American Council of Trustees and Alumni 
http://www.help.senate.gov/imo/media/doc/Neal1.pdf and in the NACIQI 
report of April 2012 to the Secretary of Education, https://
www2.ed.gov/about/bdscomm/list/naciqi-dir/2012-spring/telecon-
ference-2012/naciqi-final-report.pdf, an alternative recommendation is 
offered (see page 13) that emphasizes a new set of transparency 
protocols.
    Accreditors, who currently serve as both gatekeepers to title IV 
funds and as peer-reviewers, have failed to demonstrate any commitment 
or expertise in collecting and clearly disseminating such information. 
Access to title IV funds should depend upon meeting Federal disclosure 
requirements and such thresholds as Congress may deem appropriate. 
Accreditors can then focus on their traditional role of peer review, 
self-improvement, and the dissemination of best practices.

    [Whereupon, at 11:44 a.m., the hearing was adjourned.]

                                   [all]

      
      
      
</pre></body></html>
